<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008 

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Byrd, Leahy, Dorgan, Feinstein, 
Mikulski, Kohl, Murray, Stevens, Cochran, Specter, Domenici, 
Shelby, and Gregg.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE
ACCOMPANIED BY HON. TINA JONAS, COMPTROLLER

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Before we proceed, I must announce that the 
leadership has scheduled four bills for consideration and the 
voting will commence at 11:30. So, reluctantly I must insist 
upon the 5-minute rule. Otherwise some Senators will not be 
heard.
    I would like to welcome you, Mr. Secretary and General 
Pace. I will abbreviate my statement and put the full statement 
in the record.
    Your budget request of $481 billion is the highest we have 
ever had, so it would appear logical that the request would be 
sufficient to meet all needs. However, we have found several 
serious shortfalls. For example, a critical shortfall in the 
healthcare system; the Air Force planned termination of the C-
17 fails to take into consideration the need for more aircraft 
due to overuse in Iraq; the National Guard and Reserves have 
testified that equipment levels are shockingly low; and I think 
events in Kansas recently demonstrated that.
    So we see that funding problems still exist, Mr. Secretary. 
My colleagues have also raised a question of recent changes to 
our deployment plans of our National Guard and active duty 
forces. Healthcare experts are now raising questions about the 
impact of lengthy tours on the mental health of these men.
    So, Mr. Secretary, General Pace, we appreciate your 
attendance here.
    I would like to now recognize the vice chairman of the 
subcommittee.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Good morning Mr. Secretary. I want to welcome you and 
General Pace as the subcommittee continues its Defense 
Department hearings on the fiscal year 2008 budget request.
    During our hearings this year we have received testimony 
from various components and activities of your Department.
    Each of the military departments, the National Guard and 
Reserves, the Missile Defense Agency, the Surgeons General and 
representatives from the intelligence community have all 
provided their input to the committee.
    Next week we will conclude our hearings as we receive 
testimony from members of the general public.
    The fiscal year 2008 DOD budget request of $481 billion is 
at record high levels, so it seemed logical for us to assume 
that funding levels in the request would be sufficient to meet 
all the needs of the Department. In fact, that is not the case. 
We have found a number of areas where surprising shortfalls 
remain.
    In health care, your budget includes savings for assumed 
legislative changes to increase beneficiary co-payments and 
forced efficiencies in our military treatment facilities. At 
the same time, the problems found at Walter Reed demonstrated 
that there are critical shortfalls in our health care system.
    We have learned that the Air Force planned termination of 
the C-17 fails to take into consideration the need for more 
aircraft due to its overuse in Iraq, as well as a newly planned 
increase in Army force structure, and the recommended 
retirement of the older C-5A airlifter.
    The National Guard testified its equipment levels are 
shockingly low and events in Kansas last weekend confirmed 
that.
    So even in these times of record budgets, not even 
including wartime supplementals, we see that funding problems 
still exist.
    My colleagues have also raised questions on recent changes 
to our deployment plans for our National Guard and active duty 
forces.
    This is of some concern to us as we hear that health 
experts are raising questions about the impact of lengthy tours 
on mental health.
    So Mr. Secretary, General Pace, we appreciate your 
attendance here today.
    We hope we can have in depth discussions on these and many 
other subjects. Please be advised that your remarks will 
certainly aid us in the preparation of the fiscal year 2008 
defense appropriations bill.
    We thank you very much and look forward to your testimony.
    Let me begin first by recognizing the vice chairman, 
Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman.
    In the interest of time, I will put my statement in the 
record and welcome the Secretary and General Pace and Ms. 
Jonas. We are pleased to have you here today.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    I join the Chairman in welcoming our witnesses here today. 
Thank you all for your service and for appearing here to 
discuss the fiscal year 2008 budget request.
    We face a difficult task in balancing the military's 
competing requirements for modernization, maintaining force 
readiness, and improving the quality of life for our military 
service members and their families. As we all know, the demand 
for funding far surpasses the amounts available. We look 
forward to working with you to meet the most pressing needs. I 
look forward to hearing your testimony here today.
    Thank you, Mr. Chairman.

                   SECRETARY GATES' OPENING STATEMENT

    Senator Inouye. Mr. Secretary.
    Secretary Gates. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to discuss the 
fiscal year 2008 defense budget, which includes the base budget 
request and the fiscal year 2008 global war on terror (GWOT) 
request. My statement which has been submitted for the record 
includes additional information and details.
    In summary, the budget request submitted by the President 
will modernize and recapitalize key capabilities in the armed 
forces, to include funding increases for the next generation of 
ships, strike aircraft, and ground combat systems, sustain the 
all-volunteer military by reducing stress on the force and 
improving the quality of life for our troops and their 
families, improve readiness through additional training and 
maintenance and by resetting forces following their overseas 
deployment, build the capabilities of partner nations to combat 
extremists within their own borders by using new train and 
equip authorities, thus reducing the potential demand for U.S. 
troops in the future, and fund U.S. military operations during 
fiscal year 2008 in Iraq, Afghanistan, and elsewhere in the 
ongoing campaign against violent jihadist networks around the 
globe.
    I believe that it is important to consider the request, the 
budget request submitted to the Congress this year, the base 
budget, and war-related requests in some historical context, 
inasmuch as there has been understandably some sticker shock at 
their combined price tags of more than $700 billion.
    But consider that at about 4 percent of America's gross 
domestic product (GDP), the amount of money the United States 
is projected to spend on defense this year is actually a 
smaller percentage of GDP than when I left Government 14 years 
ago following the end of the cold war and a significantly 
smaller percentage of GDP than during previous times of war, 
such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller 
relative share of our national wealth, the world has gotten 
significantly more complicated and arguably more dangerous. In 
addition to fighting the global war on terror, we face the 
danger posed by Iran's and North Korea's nuclear ambitions and 
missile programs and the threat they pose not only to their 
neighbors, but globally because of their records of 
proliferation, the uncertain paths of Russia and China, which 
are both pursuing sophisticated military modernization 
programs, and a range of other flash points, challenges and 
threats.
    In this strategic environment, the resources we devote to 
defense at this critical time should be at the level to 
adequately meet those challenges. The costs of defending our 
Nation are high. The only thing costly ultimately would be to 
fail to commit the resources necessary to defend our homeland 
and our interests around the world and to fail to prepare for 
inevitable threats in the future.
    As Sun Tzu said more than 2,500 years ago, ``The art of war 
teaches us to rely, not on the likelihood of the enemy's not 
coming, but on our own readiness to receive him, not on the 
chance of his not attacking, but rather on the fact that we 
have made our position unassailable.''
    Another perspective in this regard, closer in time and 
place to today, is that of George Washington, who said in his 
first State of the Union Address: ``To be prepared for war is 
one of the most effectual means of preserving peace.''

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, for the support this subcommittee 
has provided to the men and women of our armed forces over the 
years, and we look forward to your questions.
    Senator Inouye. Thank you, Mr. Secretary.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the Committee: I thank the Committee for 
all you have done to support our military these many years, and I 
appreciate the opportunity to provide an overview of the way ahead at 
the Department of Defense through the President's fiscal year 2008 
Defense Budget, which includes the base budget request and the fiscal 
year 2008 Global War on Terror Request.
    I believe that it is important to consider the budget requests 
submitted to the Congress this year--the base budget and the war-
related requests--in some historical context, as there has been, 
understandably, sticker shock at their combined price tags--more than 
$700 billion total.
    But consider that, at about 4 percent of America's gross domestic 
product, the amount of money the United States is expected to spend on 
defense this year is actually a smaller percentage of GDP than when I 
left government 14 years ago, following the end of the Cold War--and a 
significantly smaller percentage than during previous times of war, 
such as Vietnam and Korea.
    Since 1993, with a defense budget that is a smaller relative share 
of our national wealth, the world has gotten more complicated, and 
arguably more dangerous. In addition to fighting the Global War on 
Terror, we also face:
  --The danger posed by Iran's and North Korea's nuclear ambitions and 
        missile programs, and the threat they pose not only to their 
        neighbors, but globally, because of their records of 
        proliferation;
  --The uncertain paths of China and Russia, which are both pursuing 
        sophisticated military modernization programs; and
  --A range of other potential flashpoints and challenges.
    In this strategic environment, the resources we devote to defense 
should be at the level to adequately meet those challenges.
    Five times over the past 90 years the United States has either 
slashed defense spending or disarmed outright in the mistaken belief 
that the nature of man or behavior of nations had somehow changed, or 
that we would no longer need capable, well funded military forces on 
hand to confront threats to our nation's interests and security. Each 
time we have paid a price.
    The costs of defending our nation are high. The only thing 
costlier, ultimately, would be to fail to commit the resources 
necessary to defend our interests around the world, and to fail to 
prepare for the inevitable threats of the future.
    As Sun Tzu said more than 2,500 years ago, ``The art of war teaches 
us to rely not on the likelihood of the enemy's not coming, but on our 
own readiness to receive him; not on the chance of his not attacking, 
but rather on the fact that we have made our position unassailable.''
    A perspective in this regard--closer in time and place to today--is 
that of George Washington who said in his first inaugural address, ``To 
be prepared for war is one of the most effectual means of preserving 
peace.''
                      fiscal year 2008 base budget
    The President's fiscal year 2008 base budget request of $481.4 
billion is an increase of 11.4 percent over the enacted level of fiscal 
year 2007, and provides the resources needed to man, organize, train, 
and equip the Armed Forces of the United States. This budget continues 
efforts to reform and transform our military establishment to be more 
agile, adaptive, and expeditionary to deal with a range of both 
conventional and irregular threats.
    Some military leaders have argued that while our forces can support 
current operations in the War on Terror, these operations are 
increasing risks associated with being called on to undertake a major 
conventional conflict elsewhere around the world. This budget provides 
additional resources to mitigate those risks.
    The fiscal year 2008 base budget includes increases of about $16.8 
billion over last year for investments in additional training, 
equipment repair and replacement, and intelligence and support. It 
provides increases in combat training rotations, sustains air crew 
training, and increases ship steaming days.
                         increase ground forces
    Despite significant improvements in the way our military is 
organized and operated, the ongoing conflicts in Iraq and Afghanistan 
have put stress on parts of our nation's ground forces.
    In January, the President called for an increase in the permanent 
active end strength of the Army and Marine Corps of some 92,000 troops 
by fiscal year 2012. The base budget request adds $12.1 billion to 
increase ground forces in the next fiscal year, which will consist of 
7,000 additional Soldiers and 5,000 additional Marines.
    Special Operations Forces, who have come to play an essential and 
unique role in operations against terrorist networks, will also grow by 
5,575 troops between fiscal year 2007 and fiscal year 2008.
                  strategic investments--modernization
    The base budget invests $177 billion in procurement and research 
and development that includes major investments in the next generation 
of technologies. The major weapons systems include:
  --Future Combat System ($3.7 billion).--The first comprehensive 
        modernization program for the Army in a generation.
  --Joint Strike Fighter ($6.1 billion).--This next generation strike 
        aircraft has variants for the Air Force, the Navy, and the 
        Marine Corps. Eight international partners are contributing to 
        the JSF's development and production.
  --F-22A ($4.6 billion).--Twenty additional aircraft will be procured 
        in fiscal year 2008.
  --Shipbuilding ($14.4 billion).--The increase of $3.2 billion over 
        last year is primarily for the next generation aircraft 
        carrier, the CVN-21, and the LPD-17 amphibious transport ship. 
        The long-term goal is a 313-ship Navy by 2020.
                            missile defense
    I have believed since the Reagan administration that if we can 
develop a missile defense capability, it would be a mistake for us not 
to do so. There are many countries that either have or are developing 
ballistic missiles, and there are at least two or three others--
including North Korea--that are already developing longer-range 
systems. We also have an obligation to our allies, some of whom have 
signed on as partners in this effort. The department is proceeding with 
negotiations with Poland and the Czech Republic on establishing a 
missile defense capability in Europe while we work with our other 
allies, including the United Kingdom, on upgrading early warning radar 
systems. We are willing to partner with others in developing this 
defensive capability, including Russia. The missile defense program 
funded by this request will continue to test our capability against 
more complex and realistic scenarios. I urge the committee to approve 
the full $9.9 billion requested for the missile defense and Patriot 
missile programs.
                           space capabilities
    The recent test of an anti-satellite weapon by China underscored 
the need to continue to develop capabilities in space. The policy of 
the U.S. Government in this area remains consistent with the 
longstanding principles that were established during the Eisenhower 
administration, such as the right of free passage and the use of space 
for peaceful purposes. Space programs are essential to the U.S. 
military's communications, surveillance, and reconnaissance 
capabilities. The base budget requests about $6 billion to continue the 
development and fielding of systems that will maintain U.S. supremacy 
while ensuring unfettered, reliable, and secure access to space.
                            recapitalization
    A major challenge facing our military is that several key 
capabilities are aging and long overdue for being replaced. The prime 
example is the Air Force KC-135 tanker fleet. With planes that average 
45 years of age, the fleet is becoming more expensive to maintain and 
less reliable to operate. The Air Force has resumed a transparent and 
competitive replacement program to recapitalize this fleet with the KC-
X aircraft. The KC-X will be able to carry cargo and passengers and 
will be equipped with defensive systems. It is the U.S. Transportation 
Command's and the Air Force's top acquisition and recapitalization 
priority.
                      train and equip authorities
    Recent operations have shown the critical importance of building 
the capacity and capability of partners and allies to better secure and 
govern their own countries. In recent years we have struggled to 
overcome the patchwork of authorities and regulations that were put in 
place during a very different era--the Cold War--to confront a notably 
different set of threats and challenges.
    The administration has, with congressional support, taken some 
innovative steps to overcome these impediments. A significant 
breakthrough was the Section 1206 authority, which fills a critical gap 
between traditional security assistance and direct U.S. military 
action. It allows the Defense and State Departments to build partner 
nations' security capacity in months, rather than years. The program 
focuses on capacity-building in places where we are not at war, but 
face emerging threats or opportunities. DOD and State cooperation in 
executing this program has been excellent and serves as a model for 
developing other whole-of-government approaches to complex security 
problems.
    Section 1206 projects approved last year are already helping 
partners reduce threats to global resource flows, narrow terrorists' 
freedom of action, and increase stability in sensitive regions. The 
Chairman of the Joint Chiefs and the combatant commanders regard this 
program as the most important authority the military has to fight the 
War on Terror beyond Iraq and Afghanistan, because it allows us to help 
others get ahead of threats, exploit opportunities, and reduce stress 
on our active duty, reserve and National Guard servicemen and women.
    For fiscal year 2007, combatant commanders and country teams have 
identified nearly $800 million in projects globally. We sought $300 
million in the Supplemental and are seeking dedicated funding of $500 
million in the fiscal year 2008 base budget to provide the combatant 
commanders with the resources to implement this authority.
    Building the capacity and capability of partners and allies to 
better secure and govern their own countries is a central task to 
counter terrorism. Dedicated funding will help us accomplish this task 
without disrupting other vital DOD programs. It is much more effective 
for partner countries, rather than U.S. forces, to defeat terrorists 
operating within their borders. We strongly urge your support for this 
critical program.
          quality of life--sustaining the all-volunteer force
    Our nation is fortunate that so many talented and patriotic young 
people have stepped forward to serve, and that so many of them have 
chosen to continue to serve. So far, all active branches of the U.S. 
military exceeded their recruiting goals, with particularly strong 
showings by the Army and Marine Corps. The fiscal year 2008 request 
includes $4.3 billion for recruiting and retention to ensure that the 
military continues to attract and retain the people we need to grow the 
ground forces and defend the interests of the United States.
    We will continue to support the all-volunteer force and their 
families through a variety of programs and initiatives. The budget 
includes:
  --$38.7 billion for health care for both active and retired service 
        members;
  --$15 billion for Basic Allowance for Housing to ensure that, on 
        average, troops are not forced to incur out-of-pocket costs to 
        pay for housing;
  --$2.9 billion to improve barracks and family housing and privatize 
        an additional 2,870 new family units; and
  --$2.1 billion for a 3 percent pay increase for military members.
    In addition, recently announced changes in the way the military 
uses and employs the Reserves and National Guard should allow for a 
less frequent and more predictable mobilization schedule for our 
citizen soldiers.
    Combined with other initiatives to better organize, manage, and 
take care of the force, these changes should mean that in the future 
our troops should be deployed or mobilized less often, for shorter 
periods of time, and with more predictability and a better quality of 
life for themselves and their families.
                      global war on terror request
    The President's fiscal year 2008 Global War on Terror request for 
$141.7 billion complies with Congress's direction to include the costs 
of ongoing operations in Iraq and Afghanistan in the annual Defense 
Department budget. Given the uncertainty of projecting the cost of 
operations so far in the future, the funds sought for the fiscal year 
2008 GWOT request are generally based on a straight-line projection of 
current costs for Iraq and Afghanistan. This request includes $70.6 
billion to provide the incremental pay, supplies, transportation, 
maintenance and logistical support to conduct military operations.
Reconstitution
    The fiscal year 2008 GWOT request includes $37.6 billion to 
reconstitute our nation's armed forces--in particular, to refit the 
ground forces, the Army and Marine Corps, who have borne the brunt of 
combat in both human and material terms. These funds will go to repair 
or replace equipment that has been destroyed, damaged, or stressed in 
the current conflict. In many cases, reconstitution funds will provide 
upgraded and modernized equipment to replace older versions. The $13.6 
billion in reset funds in the fiscal year 2008 GWOT request for the 
U.S. Army will go a long way towards replacing items, one for one, that 
were worn out or lost during operations to ensure force readiness 
remains high.
Force Protection
    This fiscal year 2008 GWOT request includes $15.2 billion for 
investments in new technologies to better protect our troops from an 
agile and adaptive enemy. Programs being funded would include a new 
generation of body armor, vehicles that can better withstand explosions 
from Improvised Explosive Devices (IEDs), and electronic devices that 
interrupt the enemy's ability to attack U.S. forces. Within this force-
protection category, the fiscal year 2008 GWOT request includes $4 
billion to counter and defeat the threat posed by IEDs.
Afghan/Iraqi Security Forces
    The fiscal year 2008 GWOT request includes $4.7 billion to stand up 
capable military and police forces in Afghanistan and Iraq. The bulk of 
these funds are going to train and equip Afghan National Security 
Forces (ANSF) to assume the lead in operations throughout Afghanistan. 
As of February, over 90,000 have been trained and equipped, an increase 
of more than 33,000 from the previous year.
    In Iraq, approximately 334,000 soldiers and police have been 
trained and equipped, and are in charge of more than 60 percent of 
Iraqi territory and more than 65 percent of that country's population. 
They have assumed full security responsibility for four out of Iraq's 
18 provinces and are scheduled to take over more territory over the 
course of the year. These Iraqi troops, though far from perfect, have 
shown that they can perform with distinction when properly led and 
supported.
Non-Military Assistance
    Success in the kinds of conflicts our military finds itself in 
today--in Iraq, or elsewhere--cannot be achieved by military means 
alone. The President's strategy for Iraq hinges on key programs and 
additional resources to improve local governance, delivery of public 
services, and quality of life--to get angry young men off the street 
and into jobs where they will be less susceptible to the appeals of 
insurgents or militia groups.
    Commanders Emergency Response Program (CERP) funds are a relatively 
small piece of the war-related budgets--$977 million in the fiscal year 
2008 GWOT request. But because they can be dispensed quickly and 
applied directly to local needs, they have had a tremendous impact--far 
beyond the dollar value--on the ability of our troops to succeed in 
Iraq and Afghanistan. By building trust and confidence in Coalition 
forces, these CERP projects increase the flow of intelligence to 
commanders in the field and help turn local Iraqis and Afghans against 
insurgents and terrorists.
                               conclusion
    With the assistance and the counsel of Congress, I believe we have 
the opportunity to do right by our troops and the sacrifices that they 
and their families have made these past few years. That means we must 
make the difficult choices and commit the necessary resources to not 
only prevail in the current conflicts in which they are engaged, but to 
be prepared to take on the threats that they, their children, and our 
nation may face in the future.

    Senator Inouye. General Pace.
STATEMENT OF GENERAL PETER PACE, UNITED STATES MARINE 
            CORPS, CHAIRMAN, JOINT CHIEFS OF STAFF
    General Pace. Mr. Chairman, Senator Stevens, members of the 
subcommittee. Thank you. It is a great honor to sit before you 
this morning to represent the 2.4 million men and women in your 
armed forces who serve this country so nobly. On their behalf, 
I would like to thank you all for your very strong bipartisan 
support, not only from the standpoint of funding, but also the 
visits that you make to the field and the visits you make to 
the hospitals. The word gets around to the troops that you are 
out visiting. It makes a difference, and for them and for 
myself I want to say thank you, sir. I also want to say----
    Senator Inouye. Thank you very much, General Pace.
    [The statement follows:]
                Prepared Statement of General Peter Pace
    Chairman Inouye, Senator Stevens, distinguished members of the 
Committee, it is my privilege to report to you on the posture of the 
U.S. Armed Forces. On behalf of 2.4 million Active, Guard, and Reserve 
Soldiers, Sailors, Airmen, Marines, and our families, thank you for 
your continued support. Your visits to troops in Iraq, Afghanistan, and 
beyond; comfort to the wounded; and funding for transformation, 
recapitalization, pay and benefits are deeply appreciated.
    America's military is the world's finest, due in large measure to 
the patriotic sacrifices of our Nation's Service members. I want to 
thank them and their families for all they have done, and continue to 
do, to maintain our freedom. For the first time, America's All 
Volunteer Force is fighting a long term war with a significant 
commitment of combat forces. Our troops are serving with extraordinary 
dedication and distinction. They are an inspiration to us all and I am 
honored to represent them here today.
    Winning the War on Terrorism is and will remain our number one 
priority. At the same time, we will continue to transform our Armed 
Forces, strengthen Joint Warfighting capabilities, and improve the 
Quality of Life of our Service members and their families.
                         strategic environment
    My biennial National Military Strategy Risk Assessment was 
submitted to Congress earlier this year. That classified document and 
the Secretary of Defense's plan for mitigating risk depict the 
challenges we face around the globe and discuss how we will overcome 
them. Sustained deployments, equipment utilization, and operational 
tempo each impart risk from a military perspective. The current heavy 
demand for ground, sea, and air capabilities is not likely to dissipate 
in the immediate future.
    As stated in my Assessment, our Armed Forces stand ready to protect 
the homeland, prevent conflict, and prevail over adversaries. These 
missions present simultaneous and interrelated challenges of varying 
intensity, immediacy, and danger.
    America's Armed Forces are in our sixth year of sustained combat 
operations. We are fighting sectarian violence, insurgency, and 
terrorism in Iraq and Afghanistan. Al Qaeda and its allies threaten the 
safety of our homeland and our overseas partners--threats made more 
alarming by the proliferation of Weapons of Mass Destruction. We face 
other threats and challenges as well:
  --Iran sponsors operations in Lebanon and Iraq that are destabilizing 
        those governments. In addition, Iran's drive to enrich uranium 
        highlights its desire to assert greater influence in a region 
        of vital interest to our Nation.
  --North Korea's pursuit of nuclear weapons and associated missile 
        technologies poses another strategic challenge. The launch of 
        multiple ballistic missiles on the fourth of July 2006 coupled 
        with the apparent successful detonation of a nuclear device in 
        October 2006 undermines counter-proliferation efforts, 
        threatens many, and could provoke a regional arms race.
  --China's military build-up continues unabated, to include offensive 
        strike missiles, expanded sea and air control capabilities, 
        anti-satellite systems, cyber-attack technologies, and an 
        increasingly capable Navy and Air Force.
  --Pakistan requires continued international support to maintain 
        stability. Given its possession of nuclear weapons and pivotal 
        location, a stable government in Pakistan is critical to guard 
        against transnational terrorism and ease tensions with 
        neighboring India.
  --The Abu Sayaf Group in the southern Philippines and Jemaah 
        Islamiyah in Indonesia remain terrorist threats in the region 
        and continue to exploit security gaps in the largely maritime 
        tri-border region of southern Philippines, Indonesia, and East 
        Malaysia.
  --Narco-terrorists in Latin America destabilize societies, harm 
        nations, and hold American citizens hostage.
  --The governments of Venezuela and Cuba are openly anti-United 
        States. Together, they actively seek to create alignments to 
        oppose us throughout the region.
  --Succession questions in Cuba may lead to mass migration.
  --Political and humanitarian challenges in Africa are myriad, 
        including the specter of growing instability, genocide, civil 
        war, and safe havens for terrorists.
    Given the breadth of these challenges, their complexity, and their 
potential long duration, we must increase our overall capacity in order 
to reduce strategic risk. The proposed fiscal year 2008 budget, the 
fiscal year 2007 supplemental, and the fiscal year 2008 Global War on 
Terrorism request match resources to these tasks. These budget requests 
represent a significant investment, but that investment is 
approximately 3.9 percent of our Gross National Product--relatively 
modest in historic terms.
    We also submitted an amendment to the fiscal year 2007 
supplemental. The proposal reallocated $3.2 billion within the pending 
fiscal year 2007 request to fund our new way forward in Iraq and 
Afghanistan. The revised request better aligned resources to meet our 
goals without increasing the Supplemental.
                        win the war on terrorism
    We must prevail in the Global War on Terrorism. Sustaining 
operations in Iraq and Afghanistan, while maintaining readiness to 
respond to new contingencies around the globe, is a heavy burden for 
our current force structure. Nearly a million American men and women in 
uniform have deployed to Iraq and Afghanistan, and more than 400,000 
have been deployed more than once. Presently, more than 200,000 troops 
are deployed to the Central Command area of responsibility; another 
210,000 are elsewhere overseas. Most of our Army Brigade Combat Teams 
and their Marine Corps regiment equivalents receive only one year at 
their home station before deploying again--and that year is spent 
actively preparing to redeploy overseas to fight. We will have twenty 
Brigade/Regimental Combat Teams deployed to Iraq, with another three in 
Afghanistan, one in Korea, and one in Kosovo. This drives our units to 
operate at about a 1:1 ``deployed:at-home'' ratio--which is about half 
the time we believe is necessary to sustain readiness for the long 
term.
    To accomplish our missions in Iraq and Afghanistan and remain 
prepared for other challenges, the President and Secretary of Defense 
have announced a number of personnel initiatives. These include the 
increase of force structure for the Army and Marine Corps, and policy 
changes to the way we mobilize our Reserve Component. The Army and 
Marine Corps are both focused on using this added troop strength to 
grow their operational forces. We are committed to building an active 
Army of 48 Brigade Combat Teams. That is an increase from a previous 
goal of 42. For the Marine Corps, we are adding one Regimental Combat 
Team. The Army is also civilianizing military positions, cutting its 
non-operational force structure, and reallocating those manpower 
savings to combat units. The Marine Corps is also implementing policy 
to ensure all Marines have the opportunity to serve in a combat zone.
    Army units are now deployed to the Central Command area of 
responsibility for fifteen months. They will be at home for not less 
than twelve months. This initiative reflects both the challenge we face 
and our commitment to success in Iraq and Afghanistan. This policy is 
designed to ensure our troops have a year at home before returning to 
the fight. That year is important. It allows a predictable amount of 
dwell time for Soldiers to be with their families as well as to train 
with their units for combat. This decision asks much of our Soldiers 
and their families. We are deeply grateful for the service and 
sacrifice of our men and women in uniform and their commitment to 
accomplishing our mission.
    Approximately 38,000 individual augmentees have deployed to 
headquarters such as Multi-National Force-Iraq, the International 
Security Assistance Force in Afghanistan, and U.S. Central Command. 
Nearly 13,000 others have helped train Afghan and Iraqi forces. Most of 
these positions are filled by mid-grade leaders normally serving in 
operational units. Increased manning in these mid-grade ranks, to 
include the Army's request for an additional 2,852 field grade 
officers, will fill requirements without undermining combat units.
    Our weapons, equipment, and supplies have been reduced by combat 
loss and consumption in Iraq and Afghanistan during the past five and a 
half years. We have also used significant resources in disaster relief 
operations responding to the Asian Tsunami, Hurricane Katrina, and 
Pakistan's earthquake. The fiscal year 2007 supplemental and fiscal 
year 2008 Global War on Terrorism request include a total of $51.5 
billion to reconstitute our Joint Forces. While it will take some time 
for newly authorized troops to become available for deployment and for 
reconstitution of equipment to take effect, our men and women in 
uniform are grateful for the much needed additional manpower and 
resources that are on the way.
    The challenges we face are not ours alone; they threaten many 
others. Working with partners improves our ability to defeat terrorist 
networks and increases regional stability and security. Our regional 
security cooperation efforts in Latin America, particularly in Colombia 
where great progress is occurring, help local militaries protect 
democratic governments and build partnership capacity to counter 
terrorist, narcotic, and other illicit activity. In the Far East, our 
support for Southeast Asia maritime security in the Strait of Malacca 
and the Sulu and Sulawesi Seas helps fight terrorist and criminal 
activity. Combined Joint Task Force-Horn of Africa and the Trans-Sahara 
Counter-Terrorism Partnership deter terrorist activity, provide 
humanitarian assistance, and improve the ability of African countries 
to foster security within their own borders. And, we are establishing a 
new unified command for Africa to better integrate U.S. interagency 
efforts and partner with other nations and international organizations.
    Boosting the capability of other countries' forces and providing 
direct action support to commanders in the field requires that we 
expand our irregular warfare capabilities. Irregular warfare includes 
long duration unconventional warfare, counter-terrorism, 
counterinsurgency, clandestine operations, and military support for 
stabilization and reconstruction. Our Special Operations units perform 
these missions in Iraq and Afghanistan, and deploy to approximately 
forty other countries around the world. To answer these demands, we are 
expanding the size of our Special Operations Forces and we have 
established the Marine Special Operations Command. We are also moving 
forward with the Global Special Operations Force Posture plan that will 
maximize the number of Special Operations Units forward deployed.
    In addition to physical battlefields, the Global War on Terrorism 
has a significant information component. Our enemies use propaganda to 
deliver their message and justify their actions. We counter the enemy's 
efforts most effectively when our actions and words reinforce America's 
strategic goals and national ideals. We deny our foes success in 
mobilizing sympathizers when local and global audiences understand the 
enemy's true intent. The Joint Staff, the Combatant Commands, and the 
Office of the Secretary of Defense are working together to ensure 
greater consistency and timeliness in our strategic communication 
efforts.
    At its most basic level, winning the War on Terrorism means 
defending our homeland. To better protect the United States from direct 
attack, our Armed Forces are working closely with civilian leadership 
in federal, state, and local governments to provide an effective 
response in time of crisis. The Navy and Coast Guard are strengthening 
maritime domain awareness. The Air Force maintains surveillance and 
interceptor alerts to provide air sovereignty protection. The Army is 
investing in expanded biological weapons detection equipment and 
vaccines. And we are continuing to increase the capability of our 
Chemical Biological Radiological Nuclear and High Yield Explosive 
Consequence Management Response Forces and seeking more resources to 
better respond to multiple events in different locations. Contingency 
plans are continually refined so that the Armed Forces are prepared to 
assist civil authorities in the event of another terrorist attack. We 
are creating additional Weapons of Mass Destruction response teams. 
Moreover, we are working with coalition partners, through intelligence 
sharing, coordinated planning, and agreements such as the Proliferation 
Security Initiative to prevent the spread of Weapons of Mass 
Destruction.
    Additionally, your Armed Forces are prepared to assist in 
responding to natural disasters. In such events, we would provide 
support in the form of manpower, logistics, transportation, 
communications, and planning, just as we did following the devastation 
of Hurricane Katrina. Likewise, military planners are focused on the 
dangers of a possible global Pandemic Influenza, to ensure our 
readiness to execute military missions and support civil authorities.
                       accelerate transformation
    The evolving diverse threats to our Nation make it imperative that 
we adapt and innovate. Transformation is a continual effort to 
significantly increase our ability to deter and defeat America's foes. 
It is an ongoing process of rethinking our doctrine and operational 
concepts; fashioning professional education and training to meet new 
challenges; restructuring our organizations and business practices to 
be more agile; improving our personnel policies; adapting our planning 
systems to be more responsive; reforming our acquisition and budget 
processes; and harnessing advanced technology. It is not an end state. 
It is a mindset and a culture that encourages innovation and fresh 
thinking.
    We need a dramatic leap forward in our relationship with 
interagency and international partners. Today's many challenges--
conventional, insurgency, terrorism, and the proliferation of weapons 
of mass destruction--require that our Armed Forces work closely with 
our civilian government counterparts and multinational partners. Much 
like Goldwater Nichols accomplished for our Armed Forces two decades 
ago, we should assess what new or revised authorities are needed to 
enhance interagency coordination, and build a more joint and integrated 
process. To increase our government's overall effectiveness in the War 
on Terrorism, we must improve three areas.
    First, we must improve our ability to build partnership capacity. 
Our struggle against violent extremists requires that we fight people 
who hide in countries with whom we are not at war. The best way to do 
this is by augmenting the capacity of those countries to defeat 
terrorism and increase stability--helping them overcome problems within 
their borders and eliminate terrorist safe havens. Building partnership 
capacity leverages the local language, knowledge, and culture of 
indigenous forces, which reduces requirements for our own forces. To 
this end, I support legislation to extend and expand past enacted 1206 
and 1208 authorities for educating, training, and equipping foreign 
forces for counter-terrorism operations. Such authorities increase our 
ability to share resources among agencies. Additionally, I support 
authorization for a National Security Initiative Fund, under 
Congressional oversight and managed jointly by the Departments of State 
and Defense. Such a fund enhances our agility in coordinating and 
harnessing resources to address changed circumstances and policies, and 
will complement congressionally granted transfer authority and 
emergency supplemental appropriations.
    Second, we need greater expeditionary capabilities in U.S. 
government civilian agencies for stabilization and reconstruction 
operations. The Global War on Terrorism requires all instruments of 
national power--not just the military. U.S. government civilian 
agencies have a vital role to play in overseas operations. Greater 
investment in these agencies is required if they are to be more 
effective. To increase their expeditionary capability, the President 
has proposed the creation of a Civilian Reserve Corps for the State 
Department. We strongly support this initiative to boost our Nation's 
capability to deploy civilian expertise in tandem with our military.
    Third, we must enhance interagency effectiveness. Today's many 
national security challenges cross the boundaries of specific 
government departments. We need to improve our collective approach and 
ensure decisions are implemented in a coherent and timely manner across 
agencies. Just as the Goldwater-Nichols Act established a system of 
incentives and requirements to foster Jointness among military 
officers, we need to find ways inside of our government to encourage 
interagency expertise. Rewarding interagency education, interagency 
experiences, interagency collaboration, and interagency planning will 
facilitate better synergy between departments. We can go beyond the 
education we provide our military and civil servant professionals by 
integrating our National Defense University within a National Security 
Education Consortium. We can strengthen and institutionalize mechanisms 
for interagency coordination by building on the success of interagency 
centers such as the National Counter Terrorism Center and Combatant 
Command Joint Interagency Coordination Groups. We can expand our 
interagency exercises. And, we can increase planning capacity in 
civilian agencies to improve our execution of operations.
                      strengthen joint warfighting
    To win the war and continue the process of transformation, we are 
strengthening our Joint Warfighting capabilities. By employing our 
Service branches in a joint manner, we leverage their complementary 
capabilities. We can and should, however, go beyond our current level 
of jointness by moving from an interoperable force to an interdependent 
force. We have already had some successes. For instance, naval aviation 
is now responsible for all airborne electronic warfare. Air Force 
Unmanned Aircraft Systems provide key intelligence for all Services. 
Moreover, Navy and Air Force security, communications, and logistics 
elements fill joint requirements in Iraq and Afghanistan.
    Combatant Commanders have identified shortfalls in our persistent 
Intelligence Surveillance and Reconnaissance capabilities, such as 
shortages of platforms, sensors, and processing infrastructure. To 
better support our Intelligence Surveillance and Reconnaissance needs, 
we are budgeting for more capacity. We are also refining integration 
between our unmanned assets, human intelligence operations, and our 
analysis capabilities--improving all.
    Warfighter demands for satellite platforms and related terminal 
programs continue to grow as we field more bandwidth-intensive systems, 
deploy to austere locations, and connect more tactical users to our 
Global Information Grid. To meet our requirements for beyond-line-of-
sight and reach-back communications, we must maintain military 
satellite communications launch schedules, leverage commercial 
capabilities, pursue efficiencies, and continue research and 
development initiatives.
    America and our friends around the globe are increasingly dependent 
on networked communications systems to store, modify, and exchange 
data. Interruption of our access to cyberspace could significantly 
damage national defense and civil society. The Armed Forces' new cyber 
strategy sets a course that calls for the development of new 
organizations, intellectual capital, and greater interagency 
coordination. To ensure unity of effort, U.S. Strategic Command's Joint 
Task Force--Global Network Operations is working with the Combatant 
Commands, the Services, and the Interagency to strengthen and integrate 
defensive and offensive cyber capabilities. We are reviewing the 
authorities and responsibilities required for dealing with cyberspace 
threats, particularly as they apply to our relationship with other U.S. 
government agencies. Changes in authority and policy must ensure that 
the entire U.S. government is able to meet current and emerging 
threats.
    We must also enhance our capability to engage targets globally and 
rapidly to strengthen strategic deterrence and response. We are 
developing conventional long range strike capability, improving missile 
defense, and modernizing our national command and control. These 
efforts will ensure our strategic deterrence capabilities remain 
relevant.
  improve the quality of life of our service members and our families
    Our men and women in uniform are our most precious resource. We 
must continue to ensure their welfare and that of their families. The 
most advanced ship, aircraft, or weapon system is useless without 
motivated and well-trained people. Every day, our Soldiers, Sailors, 
Airmen, and Marines serve our Nation with distinction. We do well to 
honor their service by providing for them and their loved ones.
    The funding of the fiscal year 2007 Military Construction, Quality 
of Life, and Veteran's Affairs appropriation by House Joint Resolution 
caused a $3.1 billion shortfall in the Base Realignment and Closure 
(BRAC) appropriation. This shortfall jeopardizes our ability to 
complete BRAC actions within statutory deadlines and creates negative 
effects on the movement of our troops and their families in support of 
our global defense posture restructuring. I urge the Congress to 
correct this shortfall by providing the necessary funds at the earliest 
opportunity.
    Predictability of deployments for all Service members is a key 
factor to quality of life. Sustainable force rotation policies are 
needed to spread the burden across the Active and Reserve Components. 
Greater mobilization predictability for Reserve Component members, and 
their families and employers is required. To accomplish this, the 
Secretary of Defense has established a new Total Force Policy. The 
mobilization of Reserve Component forces will be managed on a unit, 
instead of an individual, basis--and with a goal of one year maximum 
mobilization, followed by five years at home. This predictability will 
improve the quality of life in our Guard and Reserve while fostering 
greater unit cohesion. Stop Loss for both Active and Reserve forces 
will be minimized.
    To our families, protecting our troops in combat is the most 
important measure of quality of life. All Defense Department personnel 
in Iraq and Afghanistan have state of the art body armor. As technology 
improves we are procuring the next generation of body armor. Likewise, 
thanks to your continued support, currently all of our tactical 
vehicles that operate off forward operating bases in Central Command's 
area of responsibility have armor protection. And we are purchasing 
vehicles explicitly designed from the wheels up to limit Improvised 
Explosive Device damage. To further counter Improvised Explosive 
Devices, we established the Joint Improvised Explosive Device Defeat 
Organization. Teaming with private industry, we continue to make 
progress in this vital endeavor.
    Providing for our troops and their families also means caring for 
our wounded. Our military medical system saves lives everyday--and 
helps them heal here at home. The efforts of our medical professionals 
and recent advances in medicine, technology, and rehabilitation 
techniques make a huge difference. Injury survivability rates are at a 
historic high--nearly 9 in 10 of all wounded troops survive, many of 
whom would have died in past conflicts. We are also working to address 
the effects of Post Traumatic Stress Disorder. Many injuries have a 
profound impact on troops and their families, and our health care 
system is dedicated to doing everything possible to bring them back to 
duty, if they wish--or, through our Military Severely Injured Center 
and the Services' wounded warrior programs, help our wounded return to 
society empowered to make a positive difference.
                               conclusion
    I testify before you today with tremendous pride in the performance 
of your Armed Forces. Some are in combat. Others stand guard. All are 
at war helping deter attacks on our Nation and allies.
    Like World War II did for the Greatest Generation, this war will 
define this generation, and our troops are doing an extraordinary job. 
They serve this Nation superbly, willingly, and unflinchingly--
volunteers all. The sacrifices they and their families bear for our 
entire Nation warrant our deepest gratitude. Like so many who have gone 
before them, their heroism is awe inspiring. It is an honor to serve 
alongside them.
    Thank you for your support.

    Senator Inouye. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Secretary, 
General. I know we are on the 2008 bill, but I would like to 
inquire, what is going on now in the Department because of the 
delay in getting the supplemental through? Are you actually 
reprogramming moneys and is there a deadline here of when you 
are going to run out of money? I want to know, what is the 
urgency for getting another bill to the President?
    Secretary Gates. Senator, the Army already is slowing 
spending in a number of areas here at home to provide money to 
fully fund the war. We just, this committee just yesterday, I 
believe, approved a $1.6 billion reprogramming from the Air 
Force and the Navy to the Army. We will probably have another 
reprogramming up here in a few days. That kind of a 
reprogramming will extend us about a week.
    The disruption to the Department and programs here at home 
in order to fully sustain the troops abroad and particularly in 
Iraq and Afghanistan has a growing impact here at home in terms 
of contracts not let, civilians not hired, programs where the 
spending is slowed or stopped. We were already doing month to 
month service contracts for services and supplies and things 
like that on the basis--so the Army is already trying to cope 
with this.
    We will probably--if we pulled out all the stops, used 
everything possible available to us, we could probably fund the 
war into July. But I would tell you the impact on the 
Department of Defense in terms of disruption and cancelled 
contracts and programs would be huge if we had to do that.
    Senator Stevens. I would like to go some time into the 
increased cost of delaying it that long, because when you 
cancel a contract you have termination costs and everything 
else. It is just going to increase the overall costs.

                              IRAQI FORCES

    General Pace, I know it is early on. General Petraeus told 
us his estimate and asked for time to have the surge concept 
work. Can you tell us, are the Iraqi forces coming into place 
as we thought they would as this surge goes forward?
    General Pace. Sir, the Iraqi forces have come in place, but 
there has been a mixed quality to the troops that have arrived. 
Prime Minister Maliki promised his three additional brigades in 
January and February and those three additional brigades did in 
fact show up in Baghdad. Initially the brigades came in at 
about 60 percent strength. Once that was pointed out to the 
prime minister, he and his leaders got together and the 
remaining units that showed up arrived beginning around 80 
percent and the last two units showed up at over 100 percent. 
So the leadership has taken action with that regard.
    But the Iraqi forces that had been promised have been 
delivered on the time lines that they were promised they would 
deliver them.

                    KEEPING WALTER REED OPERATIONAL

    Senator Stevens. Secretary Gates, and maybe Ms. Jonas might 
want to get into this, but what steps are being taken to assure 
that Walter Reed will stay at an operational level and meet all 
the needs of these people that need special treatment until the 
new facility at Fort Belvoir is ready?
    I get the feeling, and some reports, that to a certain 
extent the quality of treatment and the ability to maintain 
that treatment would go downhill as we are moving more and more 
emphasis to Fort Belvoir. Is there a timing here and are we 
going to protect the Walter Reed facility until it is totally 
replaced?
    Secretary Gates. The short answer to your question, to your 
final question, is yes, Senator. I have given direction that 
Walter Reed will be maintained fully funded and fully staffed 
until the new facilities at Bethesda and at Fort Belvoir are 
ready. If that requires for some reason going beyond the time 
allocated under base realignment and closure (BRAC) and we see 
that is going to happen, we would come back up here to the 
Congress and ask for your approval to do that.
    But my view is that everybody have the assurance that 
Walter Reed, particularly once we have made these fixes that 
are underway right now, will remain at full capability until 
literally the day the various capabilities can be moved either 
to Bethesda or Fort Belvoir.

                BUDGET SUPPORT FOR END STRENGTH INCREASE

    Senator Stevens. Thank you.
    This will have to be my last question. We are told the Army 
is going to grow by 65,000 soldiers and the Marine Corps by 
27,000 marines. Now, is this bill before us now for 2008, is it 
capable of initiating that growth? Are we going to have the 
ability to have the facilities for these people, the training 
capability to handle them, and really all it takes to initiate 
this expansion?
    I support that expansion. I just want to know, do we have 
to add any money to this bill to carry forward this new 
announcement?
    Secretary Gates. I think that the fiscal year 2008 request, 
Senator Stevens, takes those needs into account. There is about 
$12 billion in this budget to fund the first year's increment 
of 7,000 in the Army and 5,000 in the Marine Corps. We have 
also asked the services to come to us and make clear where they 
intend to base the additional troops so that we can ensure that 
the funds are allocated to make sure the barracks and other 
facilities are available when those troops come on board.
    Senator Stevens. Do you agree, General Pace?

                                 BUDGET

    General Pace. I do, sir. It codifies the 30,000 increase 
that the Army has already sustained and adds the money for the 
7,000 for next year. It codifies the 5,000 that the Marine 
Corps has already increased and gives them money for 5,000 for 
next year and allows them to build 7,000 per year for the Army 
and 5,000 per year for the Marine Corps out until they get the 
65,000 and the 27,000.
    Senator Stevens. Thank you. It is nice to have you here.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Leahy.

                        NATIONAL GUARD SHORTFALL

    Senator Leahy. Thank you, Mr. Chairman.
    You turn on the news and you see the makings of a tropical 
storm over the southeast coast. Hurricane season has not even 
started. Kansas is depending upon Guard resources in the 
aftermath of a terrible, deadly disaster. I mention this 
because the domestic demands of the National Guard go on 
unabated no matter what is happening overseas. They go on 
unabated, whether it is fires, hurricanes, earthquakes, and so 
on.
    Now, over the next 5 years the Army and the National Guard 
agree the Guard faces a $24 billion shortfall in National Guard 
equipment. I have got the long list that they put out. There 
are no funds, no funds in here to meet the shortfall. It seems 
like the kind of a hole that you could drive a Humvee through--
well, if they had the Humvees. They are going to be hard-
pressed in these basic emergencies without trucks, generators, 
communications, and so on.
    Mr. Chairman, I would ask unanimous consent that the 
detailed description of the shortfalls be included in the 
record.
    Senator Inouye. Without objection, so ordered.
    [The information follows:]
              ARNG Equipping Requirements Versus Resources
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                                       ARNG UFR TO REACH 90 PERCENT: $13.1 BILLION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Shortfall
                                                                            Quantities   Quantities   Shortfall   Procurement  Post Fiscal
                                                   Required     On Hand     Delivered      Before       Before      Program     Year 2008-   UFR to S-1
               Equipment Category                 Quantities   Quantities  Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year       13        Floor (90
                                                    (000)        (000)       2007-08      2008-13      2008-13      2008-13     Shortfall   percent) \1\
                                                                              (000)        (000)         ($M)         ($M)         ($M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Armor-Hvy T/W..................................        15.04         8.58          .59         5.87    $1,949.18    $2,312.76  ...........  ............
AVN............................................        60.58        29.84          .36        30.38   $12,928.15    $3,596.72    $9,331.43     $5,528.87
C2.............................................       189.68        17.02        23.95       148.71    $1,917.63    $2,021.18  ...........  ............
Communicate....................................       589.81       336.90        15.52       237.39    $3,009.98    $1,512.38    $1,497.60       $891.07
Engineer.......................................        30.97        14.42          .79        15.76    $1,655.52      $851.72      $803.80       $478.26
Force Protection...............................       476.50       356.94        20.29        99.27      $996.37      $122.89      $873.48       $519.72
ISR............................................         5.65         2.22          .93         2.50      $381.96      $787.05  ...........  ............
Logistics......................................       588.11       137.45         3.07       447.59    $1,637.92      $648.38      $989.54       $588.78
Maintenance....................................        19.25         3.25         2.29        13.71      $281.19       $36.50      $244.69       $145.59
Medical........................................        25.14        10.24         6.19         8.71       $15.98      $101.67  ...........  ............
Precision Strike...............................        27.51        10.49          .91        16.10    $1,975.81    $2,474.67  ...........  ............
Security.......................................     1,730.86       819.94       135.94       774.97    $3,561.81    $1,543.94    $2,017.87     $1,200.63
Transportation.................................       179.61        51.20        17.61       110.80   $10,163.36    $5,178.90    $4,984.46     $2,965.76
Other..........................................       262.05        72.35  ...........       189.70    $1,451.32  ...........    $1,451.32       $863.54
                                                --------------------------------------------------------------------------------------------------------
      Totals...................................     4,200.75     1,870.85       228.23     2,101.46   $41,926.18   $21,188.76   $22,194.19    $13,182.22
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In addition to the fall current funds programmed through fiscal year 2013, an additional UFR of $13.18 billion is required to get the ARNG to 90
  percent EOH (S-1). It will take approximately $24 billion to reach 100 percent. All figures are based on fiscal year 2008 Costs and don't include
  ``Grow the Army'' Costs.


                                           FISCAL YEAR 2008 ARNG TOP 25 EQUIPMENT MODERNIZATION SHORTFALL LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                 Quantity        Quantity
                                                 Required        Shortage        Shortage       POM 2008-13              APPN               UFR 2008-13
--------------------------------------------------------------------------------------------------------------------------------------------------------
HMMWV.......................................          48,715          18,611          $4,039        $1,647.0  OPA.......................        $2,392.0
Family of Medium Tactical Vehicles..........          37,995          30,140          $7,267        $1,689.9  OPA.......................        $5,577.1
HTV--HEMTT/LHS/PLS..........................          21,180          14,796          $1,652        $1,059.3  OPA.......................          $592.7
M916A3 Light Equipment Transporter..........           1,591             794            $180          $152.4  OPA.......................           $27.6
Tactical Trailers...........................           5,699           2,984            $177           $10.6  OPA.......................          $166.4
M917A2 Dump Truck...........................             544             334             $67  ..............  OPA.......................           $67.0
CH-47F Chinook..............................             159             159          $6,678          $670.6  ACFT......................        $6,007.4
Comm Systems (JNN, SINCGARS, HF)............         143,615          62,613          $3,997          $968.7  OPA.......................        $3,028.3
UAV Systems (Shadow, Raven).................             586             575            $462          $307.1  OPA.......................          $154.9
Small Arms..................................         209,098          99,129            $360          $240.0  OPA.......................          $120.4
ABCS (Suite of Systems).....................           1,399             800            $166           $20.7  OPA.......................          $145.3
Digital Enablers (Log Automation)...........          12,167           7,873            $196  ..............  OPA.......................          $196.0
Movement Tracking System....................          16,711          12,588            $302          $203.4  OPA.......................           $98.6
Night Vision (AN/PAS-13, AN/VAS-5)..........          41,912          33,170            $640          $241.5  OPA.......................          $398.5
Tactical Water Purification System..........             131             128             $61           $38.9  OPA.......................           $22.1
Tactical Quiet Generators...................          19,611          12,748            $324          $118.1  OPA.......................          $205.9
All Terrain Crane (ATEC)....................             174              29              $7  ..............  OPA.......................            $7.0
M9 ACE SLEP.................................             114              90             $80  ..............  OPA.......................           $80.0
Route and Area Clearance Systems............             138             138            $203          $167.8  OPA.......................           $35.2
Horizontal Construction Systems.............             587             332            $141          $111.0  OPA.......................           $30.0
Howitzers (M777A1, M1 19A2).................             498             342          $4,259          $477.4  WTCV......................        $3,781.6
Profiler....................................              65              63             $57           $57.2  OPA.......................  ..............
LLDR........................................           1,099           1,034            $362          $187.5  OPA.......................          $174.5
Gun Laying Positioning System...............             455             208             $20  ..............  OPA.......................           $20.0
Chemical (Detectors, Decon & Shelters)......          65,719          52,433            $669          $107.5  OPA.......................          $561.5
                                             -----------------------------------------------------------------------------------------------------------
      TOTALS................................         629,962         352,111         $32,367        $8,476.5  ..........................       $23,890.1
--------------------------------------------------------------------------------------------------------------------------------------------------------
Quantity Required=Endstate Fiscal Year 2008 ARNG Requirements (MTOE or like AC) to fully modernize the ARNG.
Quantity Shortage=Quantity Required minus On-Hand minus Programmed (2-year Equipment Distribution Plans).
Shortage ($M=Quantity Shortage times Per Unit Cost.
POM 2008-13 ($M)=Total procurement funding stream from FDIIS (dtd 10 JAN 07), by Army Program Element (APE) for respective equipment systems.
APPN=Type of Appropriation (OPA minus Other Procurement Army, ACFT minus Aircraft, WTCV minus Weapons & Tracked Combat Vehicles).
UFR 2008-13 ($M)=Shortage dollar amount minus POM 2008-13 dollar amount.


                                                                      ESSENTIAL 10 KEY ENABLERS: DSCA PRIORITIZED BUY LIST
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                      Item                         Priority 1      Priority 2      Priority 3      Priority 4                                Rationale/justification
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Joint Force Headquarters: Miscellaneous              $5,000,066      $5,000,027      $5,000,126      $5,000,111
 Equipment.
Command and Control (C2):
    Joint Network Nodes (JNN)..................     $33,300,000     $16,650,000     $16,650,000     $16,650,000  Provides the tactical user with an interface to strategic data networks; and
                                                                                                                  interoperability with commercial, joint, combined and coalition communications
                                                                                                                  systems across multiple security levels
    Army Battle Command Systems (ABCS).........      $7,808,500      $7,233,500      $5,638,100      $6,458,800  Provides enhanced situational awareness via a suite of systems that receive and
                                                                                                                  transmit C4ISR information
    Standard Army Management Information System     $25,727,920     $20,550,610     $21,595,610     $15,953,980  Provides logistics management/automation systems and electronic information
     (STAMIS).                                                                                                    exchange capability via both tactical and commercial networks
    Unmanned Aerial Vehicle--SHADOW............     $15,000,000     $15,000,000     $15,000,000     $15,000,000  Without funding the ARNG will be unable to provide commanders superior
                                                                                                                  situational awareness, information flow, and adequate Force Protection in
                                                                                                                  urban and conventional tactical environments
Communications: HF Radios/Equipment............     $16,288,475     $17,445,135     $15,435,815     $18,785,815  Provides secure, long-range voice and data capability
Aviation:
    Helicopters--Hoists/Mounts.................        $953,016      $1,191,270      $1,191,270      $1,191,270  Required to support HLD/HLS, state, domestic and other contingency operations
    Helicopters--NAVSTAR GPS Aviation Sets.....      $1,235,130      $1,235,130      $1,370,130      $1,370,130  Provides modern equipment and interoperability to ARNG aircraft
Civil Support Teams and Force Protection:
    NBC Shelters...............................      $5,502,000      $6,288,000      $7,860,000      $7,860,000  Provides a contamination free and environmentally controlled work area for
                                                                                                                  medical personnel
    NBC--Joint Services Transportable                  $990,000        $990,000      $1,155,000      $1,320,000  Without funding the ARNG will be cascaded outdated and no longer in production
     Decontamination System Small Scale (JSTDS-                                                                   models of the M17 LDS from the Active Component
     SS).
    NBC Radiation/Chemical Detectors...........        $682,160        $682,160        $816,990        $910,740  Provides the capability to monitor and record the exposure of individual
                                                                                                                  personnel to gamma and neutron radiation
Engineer:
    Heavy Construction Equipment--Horizontal        $16,151,889     $11,927,933     $12,579,096     $11,957,388  Replaces overaged systems that are in critical need of modernization and
     (Dumps, Graders, Excavators).                                                                                incapable of full mission support
    Heavy Construction Equipment--Vertical          $19,004,075     $16,755,970     $19,505,970     $22,255,970  Primary container/material handling equipment required to support and sustain
     RTCH, ATLAS).                                                                                                ARNG units
Logistics:
    Generators--Small/Medium...................      $5,348,830      $5,839,690      $5,839,690      $5,783,445  Critical requirement during natural disaster or state emergency. Provides
                                                                                                                  electrical power as needed to support mission requirements
    Liquid Logistics--Water Purification.......      $6,451,500      $8,070,000      $8,047,500     $10,707,500  Replaces existing 600 GPH reverse osmosis water purification systems with a
                                                                                                                  1,500 GPH capability
    Liquid Logistics--Tank Water...............      $4,840,000      $4,840,000      $4,840,000      $5,550,000  Provides a bulk water delivery/distribution/storage systems
Maintenance: STAMIS--Standard Army Maintenance         $967,458        $942,780        $983,910      $1,557,590  Mission critical system required to support unit-level maintenance support
 System (SAMS).                                                                                                   requirements
Medical: HMMWV Ambulance.......................     $13,455,000     $14,490,000     $14,490,000     $13,455,000  Provides patient transport/evacuation capability
Security:
    Small Arms--Shotgun........................        $264,610        $299,860        $332,525        $377,645  Critical for security operations in urban environments
    Night Vision--Driver's Vision Enhancers          $4,926,825      $4,926,825      $5,036,310      $5,474,250  Provides a thermal night vision capability to drivers enabling continuous
     (DVE).                                                                                                       mission operations
Transportation:
    HMMWV--Un Armored..........................    $101,590,000    $107,800,000    $107,800,000    $106,765,000  Critical enabler for the ARNG to perform all mission and support requirements,
                                                                                                                  domestic or combat
    HMMWV--Up Armored..........................     $31,598,000     $38,003,000     $38,003,000     $35,868,000  ...............................................................................
    FMTV--Trucks...............................     $60,451,326     $61,580,790     $60,966,638     $60,451,326  Replaces obsolete, non-deployable trucks. Critical enabler for the ARNG to
                                                                                                                  perform all mission and support requirements
    HTV--HEMTT Tanker/Wrecker/LHS..............     $42,833,720     $52,628,720     $51,203,720     $50,637,440  Provides line and local haul, resupply, and recovery capability to sustain
                                                                                                                  operations
    HTV--PLS Truck/Trailer/Bed/CHU.............     $56,768,600     $56,768,600     $56,768,600     $56,768,600  Primary component of the maneuver-oriented ammunition distribution system. Also
                                                                                                                  performs local-haul, line-haul, unit re-supply and other transportation
                                                                                                                  missions
    MTV--M916A3 Light Equipment Transporter....     $11,350,000     $11,350,000     $11,350,000     $11,350,000  Prime mover for pulling the M870 series trailer and heavy engineer equipment
    MTV--Tactical Trailers.....................     $11,510,000     $11,510,000     $10,540,000     $10,540,000  Required for transport of heavy engineer equipment, ISO containers, and other
                                                                                                                  cargo
                                                ----------------------------------------------------------------
      Total....................................    $500,000,000    $500,000,000    $500,000,000    $500,000,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Leahy. We are working hard to include $1 billion to 
help with the Guard's backlog. That is a $24 billion backlog. 
We have put $1 billion in the budget that the President has 
vetoed. Senator Bond and I have worked on that and will 
continue to.
    They seem--these backlogs seem to be unprecedented in the 
modern era of the National Guard. Would you agree with that?
    Secretary Gates. I do not have a lot of historical 
knowledge on this, Senator Leahy. But my impression is that the 
percentage of equipment on hand, which is about 56 percent, the 
norm that is expected for the Guard is about 70 percent 
equipment on hand. So they--across the country--have that 
shortfall, and I think that that is the lowest percentage, that 
56 percent, is certainly the lowest percent since I think at 
least 2001.
    Senator Leahy. I think you will find that it is even lower 
than that in a number of specific areas--communications, heavy 
equipment, and so on. Should we not be starting now a multiyear 
process to replace this equipment? We are not going to do it 
all in 1 year. We all agree on that, especially if the $24 
billion is correct. But should we not set a multiyear situation 
to do it?
    Secretary Gates. That is absolutely correct, Senator. In 
the 2007 and 2008 budgets, altogether there is almost $9 
billion for the Guard. Between fiscal year 2008 and fiscal year 
2013, we have in this budget or in the budget and plan $21.9 
billion just for the Army Guard. And between 2005 and 2013 
there will be something on the order of $35 or $36 billion.
    Senator Leahy. But this $24 billion is not budgeted and 
many will say that the shortfall, that they are actually down 
to 35 percent, not in the 50 percentile range----
    Secretary Gates. Well, it varies from State to State.
    Senator Leahy [continuing]. But in the 35 to 40.
    But I wish you would look at that and get back, because 
right now there is nothing in the budget to do this. There is 
no plan to resupply them. This is creating a real concern among 
Governors around the States, certainly among the adjutants 
general around the States. I mention this knowing that the 
Guard and Reserve have answered the call and they have been 
sent abroad. But we also need them to answer the call at home 
when they are needed.
    [The information follows:]

    The current Army National Guard (ARNG) equipment posture is 
49 percent. This is a national average of total Modified Table 
of Organization & Equipment (MTOE) available within the 
Continental United States (CONUS). This percentage increases to 
56 percent if equipment currently deployed is added to the 
calculation. Prior to 9/11, the Army National Guard was at 75 
percent equipment on hand for Equipment Readiness Code (ERC) A 
and P items and 58 percent for total MTOE. Since 9/11, ARNG 
equipping requirements increased significantly due to 
modernization of MTOEs. Modernization requirements combined 
high operational tempo for ARNG units supporting the warfight 
has further reduced the ARNG on-hand equipment rate.
    The Army has programmed nearly $37 billion for ARNG 
equipment, not including over $11 billion in cascading of 
equipment from the active component. If executed as programmed, 
delivery of the equipment by the end of fiscal year 2015 is 
estimated to take the ARNG to approximately 77 percent 
equipment on-hand. The current Army plan is to equip the ARNG 
to 100 percent by fiscal year 2020. In order to resource the 
ARNG to 100 percent equipment on-hand by 2020, the Army will 
have to program approximately $5.5 billion per year from fiscal 
year 2014 through fiscal year 2020. This is in addition to an 
estimated $1 billion in cascaded equipment per year.

                      WITHDRAWING TROOPS FROM IRAQ

    Senator Leahy. Now, the President has vetoed what I believe 
is a solid withdrawal plan. You may well disagree. But there is 
now talk around here by both Republican leaders and Democratic 
leaders about benchmarks the Iraqis can use to determine 
whether they are making the necessary political compromises to 
save their country. General Petraeus says he is going to take a 
close look at the strategy in September. The Republican leader 
in the House has said that is about the time we should be 
looking at it.
    But in the paper today it says that General Odierno, the 
operational commander in Iraq, seems to indicate is 
predetermined when he is quoted as saying the troop escalation 
is going to have to last well into next year. Now, you are the 
number two commander of the military right behind the 
President. At what point would you recommend to the President 
that we need an orderly withdrawal? What are the conditions 
when you would say, Mr. President, it is finally time to bring 
our soldiers home?
    Secretary Gates. Well, first of all, I think that it is 
very important to underscore that General Petraeus has said 
that he and Ambassador Crocker will make their evaluation of 
the situation and the surge in September, probably earlier 
rather than later in September. And that is the evaluation that 
the President and I and the chairman will be looking for, and I 
think I can just assure you right here that the outcome of that 
evaluation is not foreordained.
    In my view, getting the level of violence in Iraq to a 
point where the political process can go forward and seeing 
some progress in reconciliation sets the stage for us to begin 
withdrawing our units from first of all the surge, but 
withdrawing our units and allowing those security 
responsibilities to be assumed by the Iraqis. So I think those 
are the circumstances on the ground that we will be looking 
for, and I think we are going to be looking for the direction 
of events.
    We do not have to have it all locked in place and 
everything already completed. I think if we see some very 
positive progress and it looks like things are headed in the 
right direction, then that is the point at which I think we can 
begin to consider reducing some of these forces.
    Senator Inouye. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Thank you, Secretary Gates. Thank you, General Pace, and we 
thank the 2.4 million people in the armed forces of the United 
States and the 140,000 troops now in Iraq and Afghanistan.

                     PROSPECTS FOR PROGRESS IN IRAQ

    The President's veto has been sustained and we will have 
another very sharp look in September, as you have already 
noted, and we will be up for appropriations for the full 
budget, which now approximates $500 billion. This morning's 
press does talk about looking by the commanders beyond this 
year into April 2008. We know from the last election and the 
public opinion polls and the talk on the street that we are 
dealing with a very unpopular war now and there is a question 
as to how long Congress will sustain the President's position.
    We have up until now and I have--a question that I have, 
and I know it is difficult to assess and you are going to make 
a calculation in September, but what are the prospects for 
having some light at the end of the tunnel, to see some 
encouragement which would enable the Congress to have the 
fortitude to support the President and go beyond September in 
the full funding of the $500 billion?
    Secretary Gates. Well, I think that the honest answer is, 
Senator, that I do not know. I would tell you this, though. I 
think I consider it my responsibility and I think General 
Petraeus and the chairman consider it their responsibility to 
give the President and the Congress an honest evaluation of 
whether the strategy is working or not in September. Regardless 
of the answer to that question, it seems to me that sets the 
stage then to make decisions about the future.
    Senator Specter. Well, I can understand the answer you have 
given, but there is a sense here, certainly by the Democrats 
and growing among Republicans, that there has to be some 
progress, significant progress, to sustain it beyond September.

                  IRAQ WITHDRAWAL EMBOLDENING AL-QAEDA

    Let me turn to a related question, Mr. Secretary. That is, 
our civilization is threatened by al-Qaeda and by radical 
Islamic fundamentalism, and we frequently hear the argument 
that if we do not fight them there we are going to be fighting 
them here. This is an issue which is very hard to evaluate, but 
to what extent would withdrawal, if we were to take what 
Congressman Murtha wants to do, a withdrawal date, to what 
extent in your opinion would that embolden al-Qaeda and 
embolden radical Islamic fundamentalism, increase the risk of 
further attacks on our homeland?
    Secretary Gates. Senator Specter, I think that in the first 
instance it depends on the circumstances under which we 
withdraw. If we withdraw and we leave Iraq in chaos, then I 
think the consequences are pretty dire. I think we have a 
thinking enemy in al-Qaeda in Iraq. They change strategies when 
we change strategies. The way they use these improvised 
explosive devices (IEDs) is an example that they even are able 
to change technologically how they deal with this.
    If we were to withdraw leaving Iraq in chaos, al-Qaeda 
almost certainly would use Anbar Province as another base from 
which to plan operations, not only inside Iraq, but first of 
all in the neighborhood, and then potentially against the 
United States. We know that al-Qaeda has reestablished itself 
in the federally administered territories on the western border 
of Pakistan, where they are training new recruits. They have 
established linkages now in North Africa.
    So al-Qaeda has actually expanded, I would say, its 
organization and its capabilities. So I think that if we do not 
leave Iraq in some sense, with some sense of stability, 
regardless of ongoing internal difficulties, then I think the 
problem we face will be significantly worse.

                  A 2 MONTH $50 BILLION APPROPRIATION

    Senator Specter. A final question, Secretary Gates. There 
is talk in the House about $50 billion now. From what I 
understand, you have to have the full $100 billion now if you 
are to get the contracts to protect our troops. To what extent 
would it complicate an orderly progression if you only get $50 
billion now and we have to come back for another vote at a 
later time?
    Secretary Gates. Senator, my concerns about the proposal 
are actually very practical. A 2-month appropriation assumes 
that the Department of Defense, first of all, has a precise 
idea in real time of the balances in thousands of accounts that 
we have to manage. In truth, I essentially have 10,000 faucets 
all running money and some of them run at one rate, some of 
them run at another, and they all draw on one big pool of money 
behind them.
    Turning them on and off with precision and on a day-to-day 
basis or even a month-to-month basis gets very difficult. I 
think the bill, the proposal, also assumes financial and cash 
flow controls, a precision in those controls day to day, that 
would require a degree of agility that is not normally 
associated with the Department of Defense.
    In truth, I think people may also think that they are 
voting for a soldier, voting money to support a soldier in 
Iraq, when because of the way this money is pooled they may 
actually be voting to pay the salary of some guy mowing the 
lawn at Fort Lewis, because it just is not segregated in the 
way that perhaps some people think.
    A couple of other points. It would have a huge impact on 
contracting, especially with respect to readiness and reset, in 
terms of--I mean, it is tough to do a 2-month contract for a 
mine resistant and ambush protected (MRAP), for some of these 
new armored vehicles. Also, as I suggested earlier, to do 
service and supply contracts on a 2-month basis would add 
significant costs and disruption.
    Finally, in terms of the vote, proposed vote in July, we 
will have forward spent so much money to keep the troops in the 
field by that time that the truth is if that vote were to be a 
no I would have to shut down significant elements of the 
Department of Defense in August and September because I would 
not have the money to pay salaries. So a no vote in July would 
have dramatic consequences.
    In essence, the bill asks me to run the Department of 
Defense like a skiff and I am trying to drive the biggest 
supertanker in the world. We just do not have the agility to be 
able to manage a 2-month appropriation very well.
    Senator Specter. Thank you.
    Senator Inouye. Thank you.
    I would like to recognize the President pro tempore of the 
Senate, Senator Byrd.
    Senator Byrd. Thank you, Chairman Inouye and Senator 
Stevens, for conducting this hearing. With the continuing and 
escalating costs of the military operations in Iraq and 
Afghanistan and the growing percentage of Department of Defense 
funding within the domestic discretionary budget, the fiscal 
year 2008 defense budget merits close scrutiny. It is clear 
that the conflicts in Iraq and Afghanistan are straining our 
military, both in terms of troop fatigue and in terms of 
equipment wear and replacement.
    But the strains go even further, to issues of training and 
preparedness of those units stationed in the United States, 
which constitute our first response to any domestic emergency, 
and to those units stationed overseas to deal with crises 
there.
    Like many observers, I am concerned, General Pace. I am 
concerned, Secretary Robert Gates. I am concerned that we may 
be undermining our many years of military superiority and 
readiness, leaving the United States ill prepared to respond to 
any new developments at home or abroad. We must, we must 
carefully consider both our current commitments and the impact 
that those commitments may be having on our military and our 
Federal spending in a broader context.
    I have a number of questions for Secretary Gates and 
General Pace along those lines. Secretary Gates, the 2002 
authorization to use force in Iraq authorized the President to 
use force for two purposes. The first was to defend the 
national security of the United States ``against the continuing 
threat posed by Iraq.'' Let me read that again now. The first 
was to defend the national security of the United States, 
``against the continuing threat posed by Iraq.''
    The second was to, ``enforce all relevant United Nations 
Security Council resolutions against Iraq.''
    Since the Government of Iraq that is referred to in the 
resolution no longer exists, having been replaced by a 
democratically elected one, do you agree, do you agree, that 
this authorization no longer applies to the ongoing conflict in 
Iraq?
    Secretary Gates. I think the honest answer, Senator Byrd, 
is that I do not know the answer to that question.
    Senator Byrd. That is being honest. Therefore, if you do 
not know the answer, how does it apply if you do not know the 
answer?
    Secretary Gates. Well, sir, my impression is that it is the 
view of the President that it still continues to authorize the 
actions that we are taking in Iraq.
    Senator Byrd. All right.
    Secretary Gates, in a recent hearing before the Senate 
Armed Services Committee Admiral Fallon testified that the 
United States currently has no plans for contingency, 
emergency, or phased redeployment in Iraq. First of all, is 
that true?
    Secretary Gates. Let me ask General Pace to answer that 
question.
    Senator Inouye. General Pace.

                                 FORCES

    General Pace. Sir, we have published no orders directing 
the planning for the overall withdrawal of forces. We do have 
ongoing replacements of forces and we do change the size of the 
force over time, so that that system is available to either 
plus up or draw down. But we have published no orders saying 
come up with a complete plan for total drawdown.
    Senator Byrd. I am advised by my chairman that my time has 
expired. Thank you, sir.
    General Pace. Thank you.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Welcome, gentlemen. It is good to be with you.

                 WAR COSTS HURTING OTHER DEFENSE NEEDS

    Mr. Secretary, you know that I support getting our deployed 
troops all of the funding they need. But I am concerned about 
reports that I have heard and read that the billions of dollars 
we are spending in Iraq is negatively impacting our 
Department's domestic needs. Now let me talk about that a 
minute and then ask you to chat with me.
    Can you talk to us for a minute about how the war is 
affecting our ability to equip our National Guard, procure new 
assets which we have planned on for a long time--like the new 
fighters; just pick one--and meet the other needs of our 
services? Will you tell us and tell the American people about 
that?
    Secretary Gates. Well, first of all, Senator, the fiscal 
year 2008 budget proposal before you includes $177 billion for 
research, development, and procurement. That includes meeting 
new security challenges that the country will face, including 
both additional F-22s, funding the Joint Strike Fighter, new 
Navy ships, and new equipment for the Army.
    So I think that the budget, the base budget that you have 
before you, is intended to address the full range of potential 
threats and challenges that the United States may face and that 
base budget is about 11.5 percent above the fiscal year 2007 
budget and includes a significant increase in this area.
    In terms of the National Guard, as we discussed with 
Senator Leahy, we do have about $22 billion budgeted for the 
period fiscal year 2008 to fiscal year 2013 just for the Army 
Guard, and we have money in the budget for both the Army and 
Air National Guard in the fiscal year 2008 global war on 
terror, as well as the fiscal year 2007 supplemental before the 
Senate.
    There is no question that there has been a drawdown of 
equipment in the National Guard. As I indicated, the overall 
national average for equipment on hand is about 56 percent. As 
Senator Leahy pointed out, it varies from State to State. But 
clearly, we need to follow through with this program to rebuild 
the stocks of equipment that are available to the National 
Guard.
    Senator Domenici. We hear a lot of politics and political 
talk about this, depending upon who the talk is coming from. I 
would merely tell you that in my case the State is in the 
position of having little of its equipment for its Guard. 
Clearly the New Mexico National Guard is in need; in about 3 
weeks it is going back to Iraq. It just does not seem to sit 
very well when you are down to zero and your people are going 
off to war.
    I know they are different. It is different to have people 
going to Iraq and having little domestic equipment. You are not 
taking all of that equipment with you, apparently. But you 
understand it does not make too much sense to average people as 
they read it. They wonder what we are doing.
    So what you are saying is we are doing the best we can to 
build up our domestic needs. That is not a good word, but I 
mean those that are not involved in the war. We are doing our 
best, and indeed we are doing it on two fronts. One is research 
and development to keep us modern. We are spending a lot of 
money on that front to make sure that happens, correct?
    Secretary Gates. Yes, sir.
    Senator Domenici. And we do not have to bend down and worry 
that we are going to find somebody that uses this war to get 
ahead of us on new kinds of strike forces and new research and 
development (R&D)? That is not going to happen, right?
    Secretary Gates. No, sir.
    Senator Domenici. Is that correct, that is not going to 
happen?
    Secretary Gates. No, sir, it is not going to happen.
    Senator Domenici. Because we are planning the other way?
    Secretary Gates. Yes, sir.
    Senator Domenici. And with reference to the National Guard, 
they are not going to be as well equipped, you are saying, as 
they might have been if this war was not there, but they are 
going to get a lot of new money----
    Secretary Gates. Yes, sir.
    Senator Domenici [continuing]. To get re-equipped, is that 
correct?
    Secretary Gates. Yes, sir. And their infrastructure will 
also benefit from the money we will be spending on the regular 
force, the active component infrastructure here in the country 
as well.
    Senator Domenici. I want to just--I know my time--is it 
over?
    Senator Inouye. Yes.
    Senator Domenici. The chairman says I do not even have time 
for this next question. So I will just give you a name: Cannon 
Air Force Base. Then we can file a question for the record 
later.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I did not know if we were 
going in order of arrival. Senator Kohl was here before.
    Senator Inouye. Senator Kohl.
    Senator Kohl. Thank you very much. Thank you, Senator 
Mikulski.
    Secretary Gates, I and I think people all across the 
country are trying to make some common sense conclusions or 
deductions from the things that we hear here today, the things 
that we read, the things that we have now been experiencing for 
nigh how many months. Initially the surge was going to be 
evaluated in June and now you are saying it will be evaluated 
in the fall, and yet we read this morning that the troops that 
are being sent in will be augmented and they will be there well 
into next year.
    That is what so many people are fearful of, that this is in 
fact an open-ended commitment. You yourself have said this 
morning that we cannot think about leaving in your opinion 
until the level of violence has been contained, and no one 
knows how long that level of violence will go on before it can 
be contained.
    So to many people who are concerned about what is going on, 
this is an open-ended commitment that has no duration attached 
to it. The President has said that we will be there as long as 
we have to be there to achieve what he calls victory. You said 
this morning we cannot leave until we deal with the level of 
violence, and we are also hearing that the commitment that we 
are now reinforcing will go on into next year. Yet you said 
that there are no preconditions and we will be looking at this 
thing in the fall and we do not know what we will be saying 
then. But at the same time you are saying we cannot leave as 
long as the level of violence is at its current levels.
    So what the American people I think in large numbers would 
like to hear is something clear about what the administration's 
goals are and what the level of commitment is and how long it 
is going to be before we can think about redeploying our 
troops. General Pace said we have no plans to redeploy troops. 
So that is, as you know, that is the argument that is going on. 
That is the dissonance that is going on. It seems too many of 
us that you all have a responsibility to say as clearly as you 
can what these contradictions are and when they are going to be 
responded to in a way that makes sense.

                      EVALUATING PROGRESS IN IRAQ

    Secretary Gates. Well, sir, a couple of observations. 
First, when I was before this committee, before the 
Appropriations Committee, the full Appropriations Committee, a 
couple of months ago, my comment was that I thought we would be 
able to evaluate whether the Iraqis were keeping their 
commitments on the security front by early summer and whether 
we were having much luck in bringing down the level of violence 
by June.
    I think we are in a position to do that and the fact is 
they have met their commitments and the picture on the level of 
violence is a mixed one. The announcement, the press story this 
morning or in the last day or two about the 35,000 troops, 
really is a reflection of the order that I gave last week 
moving to a 15-month deployment and 12 months at home 
guaranteed. One of the purposes of doing that was to give the 
troops the maximum possible notice that they might have to 
deploy and if they do that is when they will deploy.
    So the 35,000 is simply a replacement force for forces that 
are already in the country and they may or may not have to 
deploy depending on the circumstances.
    What I was trying to convey to Senator Specter in terms of 
the September evaluation is that I think we owe the President 
and the Congress and the American people an honest evaluation 
of how the surge is working. We are not going to get--in 
September--the level of violence down to zero. The question is 
whether the level of violence is such that the political 
process can go forward in Iraq, and that then sets the stage 
for us to begin drawing down our troops.
    So I think that the evaluation that people--that we are 
expecting from General Petraeus, and I might add also from 
Ambassador Crocker, in September is really fundamental, and we 
owe you an honest answer whether, based on his evaluation, 
whether the strategy worked and what the path forward is at 
that point.
    Senator Kohl. So is it fair to conclude that, in the 
absence of any new statements, the old cliche that we broke it 
and now we own it is true about our situation in Iraq?
    Secretary Gates. Well, I would say that it is true to an 
extent, because you do now have an Iraqi government, an Iraqi 
government increasingly jealous of its sovereignty, an Iraqi 
government that is now negotiating and dealing with its 
neighbor states. You have them trying to stand up ministries. 
So they are sort of on a day-by-day basis assuming greater and 
greater responsibility. The Iraqi government has now taken over 
I think full control of four provinces. They now have full 
control of 9 of their 10 divisions in their Army.
    So certainly we have a responsibility, however, you 
characterize how we got here, to help them make this 
transition. But I would say that with each passing day they are 
taking greater ownership of the problem.
    Senator Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    First of all, Mr. Secretary, General Pace, I want to thank 
you, like everybody, for your service, for your willingness to 
serve under difficult circumstances.
    I want to pick up on what Senator Kohl mentioned a minute 
ago, like an open-ended commitment. I do not believe any of us 
have thought of an open-ended commitment to Iraq. But we are, 
at least a lot of us, are committed to making sure that General 
Petraeus and our troops have every opportunity to succeed that 
is to bring stability, with the surge in the next few months.
    I believe September, maybe it is October or November, but 
not much later than that, we are going to know, as we keep 
talking, is the surge working or is it only marginally so? But 
a lot of us have patience and we support our troops. I support 
our troops, period. But we have to I think remember one thing 
as we debate all this. Our troops have not been defeated on the 
battlefield, and their morale and their material is very 
important. You two know this very well and a lot of us do, too.
    So the next few months are important months. A lot of us 
met with General Petraeus, talked with him about this. We 
talked with him in January. We know that the clock is ticking 
there. A lot of things are broken in Iraq and we are there, and 
we can debate all day how we got there and where we should 
stay, but I do not think we should stay forever, but I think we 
should try to succeed in what we are doing now, as you do, Mr. 
Secretary.

                        UNMANNED AERIAL VEHICLES

    Mr. Secretary, I want to digress just a little bit and talk 
to you about unmanned aerial vehicles, UAVs. As you well know, 
the Army conducts right now in Iraq about 80 percent, and the 
marines I am sure has too, of the current UAV operations. Yet 
it does so with less than 20 percent of the DOD's UAV budget.
    There has been movement lately again by the Air Force to 
try to become the executive agency for medium and high altitude 
UAVs. This is--I think the Army and perhaps the marines have 
serious concerns about this. In other words, they deal with the 
tactical things. They deal with the medium range. I have voiced 
this with them. A lot of them have talked with me.
    You are the Secretary of Defense, you are the Chairman of 
the Joint Chiefs of Staff. Have you thought about that? Has it 
bubbled up to your desk yet?
    Secretary Gates. The issue has certainly come to my 
attention. I would say that the issue is bubbling toward my 
desk, and right now it is on the chairman's desk, so I will 
invite him to comment.
    General Pace. Sir, thank you.
    Several levels here. First of all, just from the simple 
standpoint of air space deconfliction, we have more than 700 
unmanned aerial vehicles in Iraq today being flown by marines, 
Army, and Air Force. So we certainly need a deconfliction 
mechanism, and the Air Force has been the mechanism that we 
have used in the past to deconflict air space.
    On the other hand, you have the tactical needs of the 
soldiers and marines on the ground, who want to make sure that 
they have their vehicle overhead when they need it----
    Senator Shelby. Immediately.
    General Pace [continuing]. In the right space, at the right 
time. And you have spectrum management. UAVs use a lot of 
bandwidth and when there is x hundred of them in the air at any 
given time you have spectrum management.
    Put simply, this is a very complex problem.
    Senator Shelby. It is.
    General Pace. Everyone in the Air Force, Army, Navy, and 
Marine Corps who is working this problem are doing so in good 
faith. The Joint Requirements Oversight Committee underneath Ed 
Giambastiani has been tasked by me to get this thing sorted 
out. It consists of the Vice Chiefs of Staff of each of the 
services and the Vice Chairman of the Joint Chiefs of Staff. I 
think they are big enough fellows to be able to figure this 
thing out and come back in to me so I can get to the Secretary 
with a recommendation about the best way to align the needs for 
air space control and tactical use in a way that gives the 
troop on the ground--at the end of the day it is about does PFC 
Pace have the support he needs from the aerial vehicle 
overhead. That is going to be my measure of effectiveness when 
the recommendation comes to me, sir.
    Senator Shelby. Well, I hope so, and I hope it is the right 
thing for the fighting man.
    Mr. Chairman, thank you.
    Senator Inouye. Thank you very much.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.
    Mr. Secretary, you need to know you really have every day 
been winning my respect, not only for the institutional role, 
but I really certainly have appreciated your responsiveness to 
issues raised by us and your desire it seems to have really 
candid information on which to guide you as the Secretary of 
Defense.
    Your prompt response to the Walter Reed crisis was really 
appreciated, the commission that you appointed and now your 
steadfast follow through I think is an example of what I am 
talking about. I believe that if we have this candor we can 
really work together for the good of the Nation.
    This takes me to one issue related to the National Guard. I 
think the fact that almost four Senators have raised this shows 
what we are hearing in our own States. But know when General 
Blum was here he told us the state of the National Guard as he 
saw it. At that hearing he told me that Maryland was 35 percent 
ready, and I am going to come to the money issue in a minute.
    That put me on the edge of my chair, because Maryland is in 
the national capital region, we are in a hurricane zone. I went 
to our National Guard and also to Governor O'Malley and our 
Lieutenant Governor, who happens to be an Iraq war veteran and 
a colonel in the Army Reserve. Briefly, the results came back 
and they were quite alarming. What we were told was that the 
Maryland National Guard faces serious equipment shortfalls and 
that in the event of a natural disaster or an attack in the 
national capital region they did not feel that they would have 
the operational capability to respond the way they should, that 
what they give the bosses is the best case scenario.
    I could go through this: 14 percent helicopters, 36 percent 
of what we need for Humvees, only 32 percent of what we need 
for generators, only 58 percent of what we need for 
communication equipment. This is quite serious.
    Mr. Chairman, I would like the report from Governor 
O'Malley and General Tuxill entered into the record.
    Senator Inouye. Without objection.
    [The information follows:]
                                 State of Maryland,
                                       Military Department,
                                  Baltimore, Maryland, May 9, 2007.
The Honorable Barbara A. Mikulski,
509 Hart Senate Office Building, Washington, DC 20510.
    Dear Senator Mikulski: Thank you for your recent inquiries 
regarding the inventory of National Guard equipment as it relates to 
the homeland mission in our great State of Maryland. It is my duty to 
provide you with an honest and forthright evaluation and you may find 
such data as attached in Enclosures 1 and 2.
    I respectfully stated in a letter to you dated April 16, 2007, that 
the Maryland National Guard remains ready to answer the call for any 
mission which we may be called to perform and expressed my support as 
in years past of the National Guard and Reserve Equipment Account 
(NGREA) as a source by which to provide our National Guard with funding 
to address our most critical nationwide equipment needs outlined by the 
Chief of the National Guard Bureau. Maryland experiences similar needs 
with equipment such as Humvees, Generators, SINCGARS Radios, updated 
Army National Guard rotary wing assets, C-130J aircraft, military 
construction needs and LITENING pods for A-10C aircraft.
    As a follow on request, you asked that we show the operational 
impact of the raw data we provided to you. The most useful way to 
illustrate this was to measure the equipment remaining in our state 
after we fully deployed the 1,400 men and women of the Maryland Army 
National Guard this summer against known metrics of previous state 
missions we have supported. In a full evaluation of the data in early 
February of this year we found that the Maryland National Guard could 
meet its mission if faced with repeat storms of either: the President's 
Day Snow Storm, Hurricane Isabel or if asked to repeat our 
contributions to support relief efforts from Hurricanes Katrina/Rita. A 
second review of this data displayed the same results. However, today's 
environment does not allow me to plan for a ``best case'' scenario. It 
is my responsibility to provide leadership for an ``All Hazards'' 
approach to emergency planning. Therefore, I directed my staff to plan 
for notional Category I and Category II Hurricanes to measure how we 
would respond. The results are found in Enclosure 1 and highlight the 
National Guard Bureau's message that our National Guard must now be 
fully resourced for our homeland mission after many years of chronic 
under-resourcing with obsolete equipment.
    My legislative priorities for this year which were submitted in 
February and directly affect our collective ability to respond to the 
needs of our citizens include: re-basing of eight newly procured C-130J 
aircraft in Maryland, a new fire station at Martin State Airport to 
provide support of military and civilian flight operations at a base we 
would utilize as a pre-staging and distribution point of relief 
supplies, and restoring national funding from $200 million to $375 
million for the Emergency Management Performance Grant. We appreciate 
your steadfast support of these items and the National Guard 
Empowerment Bill and look forward to continued efforts until each is 
fully resolved.
    While it is critical that all our deploying troops are fully 
equipped, the nation can't afford to ignore equipping the Guard for 
defending the homeland or responding to domestic emergencies. Saving 
lives and protecting property is what America expect us to do. The 
American people deserve our attention as do our citizen soldiers 
whether executing their federal and state mission or training for same. 
As always, we appreciate your support of the National Guard.
            Very respectfully,
                                           Bruce F. Tuxill,
                        Major General, MDANG, The Adjutant General.
                 Maryland Army National Guard Equipment
                                                       May 9, 2007.
                                summary
    The Maryland National Guard (MDNG) could face potentially critical 
equipment shortfalls to meet its domestic homeland security mission, 
including serious potential deficiencies in an array of basic, multi-
purpose items whose utility is clear for responding to incidents 
ranging from hurricanes to acts of terrorism. These gaps will be 
increased due to the recent mobilization of 1,400 Maryland Guardsmen to 
support the overseas war fight and could provide a response deficit in 
the ability to meet demands during a natural or human-induced emergency 
event. In addition, units in surrounding states face potentially 
parallel equipment shortfalls. Therefore, due to this shortfall, the 
State of Maryland may not be able to respond adequately as part of 
regional response to a Katrina-scale event that could impact the U.S. 
Mid-Atlantic Region. While resourcing our Active and Reserve component 
troops for the overseas war fight is critical, the National Guard must 
be fully prepared for our dual mission to protect the homeland.
    The accompanying data identifies specific shortfalls in four areas: 
ground vehicles (particularly Humvees); power generation equipment, air 
assets, and communications equipment. The Governor and the Lieutenant 
Governor, working with the Adjutant General, stand ready to work with 
the Maryland Congressional Delegation on this matter and will provide 
regular updates to the Members and staff on its efforts to deal with 
this challenge.
    We are also working with Congress to address critical Air National 
Guard needs with respect to: re-basing of C-130J aircraft in Maryland, 
Military Construction requirements for a new Fire Station at Martin 
State Airport to support operations at a base we would utilize to pre-
stage and distribute relief supplies to Marylanders and a full 
inventory of nine LITENING pods for our A-10C aircraft.
                             ground assets
    Humvees and Other Vehicle Shortfalls.--Although the MDNG is 
authorized to have 781 High Mobility Multi-Purpose Wheeled Vehicles, 
only 537 are actually assigned to Maryland. Following mobilization, the 
State will have only 279 vehicles, or about one-third of the State's 
authorized strength.
    Impact on Maryland: The Guard's fleet of vehicles includes 
ambulances, equipment and personnel movers, and other vehicles that 
have been used in past MDNG activations to move sick and elderly 
persons to high ground during flood events, dialysis patients and 
medical personnel to hospitals during snow events, and first responders 
to incident scenes when roads are impassable. With the decrease in 
available vehicles, MDNG's ability to respond to a natural or man made 
disaster or even a significant snow event would be seriously hampered 
putting lives at risk.
    For example, the MDNG estimates that if Maryland were struck by a 
Category II hurricane, approximately 335 Humvees would be required to 
respond adequately to provide essential services in support of State 
and local first responders. Based on these estimates, the Guard would 
be short 76 Humvees, due to the recent mobilization, making its 
response inadequate and putting Maryland citizens' lives in jeopardy.
    During the 2003 President's Day Snow Storm, the MDNG utilized 228 
Humvees to provide transport to medical care and other vital services 
to Marylanders and local first responders. Following the Guard's 
upcoming deployment abroad, it will have only 279 Humvees available in 
the State, stretching its ability to respond to a similar event.
                       power generation equipment
    Multi-Purpose Generators Shortfall.--MDNG is authorized to have 396 
multi-purpose generators, but in fact only 127 generators, or 32 
percent, are actually currently in the Guard's inventory.
    Impact on Maryland: The Guard's generators are used to provide 
emergency backup power to hospitals and medical facilities; to power 
and recharge critical field equipment including radio communication and 
medical gear; and to provide light and power to first responders in the 
field, distribution points for emergency medical and other supplies and 
24/7 emergency response centers.
    The MDNG estimates that it would require 130 generators to provide 
services during response and recovery from a Category II hurricane in 
Maryland. With only 127 generators on hand, the Guard is barely capable 
to respond to this level of event, and would fall below its equipment 
needs with any equipment damage or with a larger event.
                             communications
    Radio and Communications Equipment Shortfall.--The MDNG currently 
has only 1,581 of the 2,737 pieces of radio and other communications 
equipment authorized for Maryland (approximately 57 percent).
    Impact on Maryland: Radio and communications equipment are among 
the most critical items needed by first responders and supporting 
agencies. The Guard's communications gear provides critical capability 
to communicate in any environment, the core command and control network 
for the Guard when called to state service, field capabilities for 
interoperable communications and to link communications from air assets 
to ground-level incident commanders, and backup AM radios when FM units 
and repeaters are damaged. The inability of Guard units to communicate 
with each other during a disaster event due to an inadequate inventory 
of communication's gear puts lives at risk.
                               air assets
    Air Assets Shortfall.--The Maryland Army National Guard currently 
maintains a variety of air assets, including a fleet of nineteen 
Chinook and Blackhawk helicopters. Although the Army Guard is currently 
close to its authorized total of twenty-two Chinooks and Blackhawks, 
following mobilization by September 2007 the Guard will have no 
Chinooks in the state, and only thirteen Blackhawks. Similarly, 
although the Guard currently has eight C-130J Cargo Aircraft, due to 
realignment, Maryland will lose all of its C-130J's over the coming 
years.
    Impact on Maryland: The Guard's air assets provide the ability to 
move personnel and emergency supplies rapidly and into areas which are 
inaccessible by ground, and serve a variety of missions including 
search and rescue, patrol and security, damage assessment, and 
operating as air ambulances. Following mobilization, the Guard will 
have only thirteen Blackhawks available, to assist in various emergency 
operations. Again, faced with a significant weather event or man-made 
disaster, the Guard's ability to respond would be seriously hampered.
    For example, the Guard estimates that if Maryland were struck by a 
Category II hurricane up to 44 Chinooks and Blackhawk helicopters would 
be required for the Guard to perform its required emergency functions.
                               personnel
    With the imminent deployment of more than 1,400 Maryland National 
Guardsmen overseas, the Guard will lose almost a fifth of its most 
important resource, the men and women of the Guard themselves.

                 NATIONAL GUARD EQUIPMENT AND READINESS

    Senator Mikulski. Picking up on the questions of both 
Senator Leahy and Senator Domenici, we need to talk about 
money. When you say that there is $22 billion between now and 
2013, are you talking about $22 billion a year? Are you talking 
about $22 billion for 5 years? What are we talking about and 
what do your people--like Ms. Jonas--say we really do need for 
combat readiness to answer the call over there, but also 
homeland security, civil, natural disaster response back here.
    Secretary Gates. First of all, the $21.9 billion is a 5-
year figure, from fiscal year 2008 through fiscal year 2013. 
What I am told is that that will take the national average of 
equipment on hand from about 56 percent today to about 76 
percent. The norm historically for States has been about 70 
percent.
    So we are willing to sit down with you and look at the 
specifics of this, but the point is that is a substantial 
figure. That figure is for the Army Guard alone.
    Senator Specter. And we have to look at the Air Force and 
then the Guard, the marines.
    Secretary Gates. And also the Army Reserve.
    Senator Mikulski. Yes.
    Secretary Gates. So there is additional money in for that. 
So the total, I do not have the breakdown, but the total----
    Senator Mikulski. Mr. Secretary, not to interrupt you, but 
national averages, I mean, if you look at national averages, 
you put me next to Jay Rockefeller, Senator Rockefeller, the 
average height of the Senate would be 5 foot 10 and I would be 
worth several million dollars. And I will not even talk about 
if you compare Senator Feinstein and myself.
    So national averages I do not think cut it, with all due 
respect to you, because the Guard is essentially a State 
operation. That is why it has such vitality, why it has such 
support from not only the men and women who serve, but 
employers who back them up under this incredible call-up tempo 
that they have.
    So my concern is that this is not an accurate number. This 
is not finger-pointing here, but I think it is time to 
pinpoint. I would very strongly recommend two things: number 
one, an additional $5 billion for this year, and that we 
consider supplementing that; number two, when you look at 
allocation, that it be on the basis of risk. Some States have 
greater homeland security demands, like we in the capital 
region, Virginia as well as ourselves. As you know, we support 
the Pentagon in this.
    Then the other issue is what I call the culture of yes. I 
think that our military has and needs to have a culture of yes. 
They must repeat and report in the chain of command. But when 
they are asked what they need, what they get from the Guard is, 
oh, we can do it, sir; we will make it work, sir. And you get 
the yes and you get the best answers.
    I would strongly recommend that you or your designee meet 
with the National Governors Association and ask these Governors 
what they see and have their generals talk to you, and do the 
same type of truth to power that you so wonderfully have then 
opened up so that we could get to the bottom of military 
medicine. We need to know what the Guard needs to defend the 
homeland against hurricanes, wildfires, or whatever. Then we 
want to work with you because, while they are fighting there, 
they have other issues that they will be fighting here.
    Senator Inouye. Thank you very much.
    Senator Gregg.
    Secretary Gates. Mr. Chairman, could I just respond very 
quickly?
    I did meet with the adjutants general of all of the States 
when they were meeting here in Washington. I have accepted and 
am going to promulgate 20 of the 23 recommendations of the 
national commission on the National Guard, including 
recommending elevating the head of the Guard Bureau with a 
fourth star.

                               LEADERSHIP

    Senator Mikulski. I think that is terrific.
    Secretary Gates. And trying to deal with some of these 
Guard problems, and we will be more than happy to work with 
you, with the Governors Association, with the adjutants 
general, to get at this problem.
    Senator Mikulski. Thank you very much.
    General Pace. If I may, sir, I apologize----
    Senator Inouye. Senator Gregg.
    General Pace. Mr. Chairman. May I, Mr. Chairman?
    Senator, I agree with every point you said we need to look 
at. I just want to make sure that you know and that the Nation 
knows that the National Guard leadership has told us in great 
detail how they would spend $40 billion over the next 5 years 
to get up to 100 percent of equipment, and that the decisions 
have been made collectively to get it up to 76 percent, but 
that the leadership in the Guard has been very forthcoming with 
what their deficiencies are. They have laid it out very 
specifically. Lieutenant General Blum and all of his TAGs (the 
adjutant general) have been very precise in saying this is what 
we need.
    Senator Mikulski. Well, General Pace, I appreciate that. 
Let us move forward. It is a big difference between $40 billion 
and $22 billion, Mr. Chairman, and let us see what we need to 
do.
    General Pace. Yes, ma'am.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Gregg.

              EVALUATING THE EFFECTIVENESS OF TROOP SURGE

    Senator Gregg. Thank you, Mr. Chairman.
    I want to return to this issue that was raised I believe by 
Senator Leahy, because I am not sure I understood the specifics 
of the answer. In this Post article today, and maybe the quotes 
are inaccurate, but General Odierno said: ``The surge needs to 
go to the beginning of next year for sure.'' Then he went on to 
say: ``What I am trying to do is to get until April so we can 
decide whether to keep it going or not.'' And since we are in 
May, I presume he is talking about April of next year.
    So I guess that does not really--I do not understand how 
that meets with the theory that in September we are going to 
have a review, when you have got the General who is on the 
ground and in command saying he has got to go through next year 
for sure and he is trying to get to next April. I guess my 
question is how do those two positions correlate?
    Secretary Gates. I think the candid answer is they do not, 
that this is--it is General Petraeus who has said, who has told 
us that he owes us an evaluation of the effectiveness of the 
surge and how things are going in Iraq in September. The fourth 
brigade of the surge is now just on the ground in Iraq. The 
fifth brigade will go in in early June. So that will give them 
about 3 months with the full size of the surge.
    As I suggested in an earlier answer, I think what we are 
going to be looking at, what General Petraeus is going to be 
looking at, is not is the job done, but what are the trend 
lines and what are the implications of the trend lines and the 
progress or lack thereof in terms of our strategy and how we 
resource this.
    I go back to my comment, though, in response to an earlier 
question. Regardless of time lines or anything else, the 
consequences of leaving Iraq in chaos have enormous national 
security consequences for the United States.
    Senator Gregg. But it does seem to be an inconsistency here 
when the general on the ground who is in command is saying, 
well, basically we have got to go until next year, and the 
general who is in charge of the general on the ground is saying 
we are going to take a look in September and reevaluate. But I 
appreciate your forthrightness and your answer.

               APPROACH FOR COMBATING FUTURE ADVERSARIES

    Going on to another issue because our time is obviously 
limited here, I am presuming and hoping and I think all America 
is that at some point we are going to withdraw from Iraq fairly 
significantly in our troops on the ground there, and that we 
will have a stable Iraq hopefully when we do that, as you have 
outlined, and it will not be a seeding ground for other people 
who want to do us harm.
    But after we have done that, have you been thinking about 
the terms of how you fight this war as we go into the future 
and whether or not it is really a boots on the ground war or an 
intelligence war and whether or not our resources in this 
country are being focused correctly--you are asking for $500 
billion in the core defense budget--focused correctly relative 
to the fact that the threat is a disparate and spread threat, 
that is not a nation state threat; it is a threat that 
sometimes comes down to individuals, but obviously comes down 
to functioning small units across the globe, who can only be 
confronted if we have the intelligence capability to find them 
to begin with. And to what extent are you thinking in--what is 
the term of thought as we move forward? Is it still a large 
military, boots on the ground approach, or is it more of an 
aggressive intelligence, structured, targeted military 
approach? I'm addressing Iraq.
    Secretary Gates. Senator, I think it is all of the above. I 
think that one of the reasons why the sum of money is as large 
as it is, because we need to be in a position to deal with the 
challenges potentially posed by other large states. We need to 
be in a position to deal with the threat posed by proliferating 
medium-sized states like North Korea and Iran. And we need to 
be prepared to deal with this global war on terror that is 
going to be with us for a very long time, and that is a war 
that in some places will involve boots on the ground of regular 
Army and other places it will require special forces, and in 
all places it will require an extraordinary level of 
intelligence to guide that conflict, and it will involve a lot 
of partnerships with other countries and their military and 
their intelligence services.
    So I would say that one of the reasons you have a $481 
billion budget in front of you is because the United States 
needs to be prepared to deal with this full spectrum of 
potential challenges to our national security and, I might add, 
deal with the National Guard and domestic capabilities here as 
well, homeland security capabilities here as well. But clearly, 
intelligence has got to play an important role.
    Senator Gregg. Thank you.
    Senator Inouye. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    I have two areas and I want to go fast. Welcome, gentlemen.
    With respect to everything I have heard so far, correct me 
if I am wrong in summing it up that September is some kind of 
point of decision with respect to the effectiveness of the 
surge, but it is not necessarily dispositive with respect to 
policy.

                           END STATE FOR IRAQ

    The thing that concerns me, and directly following Senator 
Gregg's questions, is whether this country is really able to 
take on a non-state enemy in a way that makes sense in the 
future and whether we are doing the kind of planning for future 
non-state major military problems. I think the answer is no, 
that we are not ready for this, and I also want to ask this 
question. If, Mr. Secretary, you determine that in September 
the surge has not been viable in terms of securing Baghdad and 
reducing terror, what would your recommendation to the 
President be? And is there any truth to something that appears 
in David Ignatius's column this morning that says the ferment 
in the region is driven partly by the perception that United 
States troops are on the way out no matter what the Bush 
administration says? To dampen such speculation, Bush is said 
to have told the Saudis that America will not withdraw from 
Iraq during his presidency. ``This gives us 18 months to 
plan,'' said one Saudi source.
    Secretary Gates. I think it is our view, Senator, that the 
end state--and Senator Judd alluded to this a little bit--that 
the end state for some period of time after we conclude major 
combat operations in Iraq is that there will be a continuing 
need for a U.S. presence and a relationship, security 
relationship, with the Iraqis for some period of time.
    What that number of troops involves precisely I have no 
idea, because it will depend on their needs and the situation. 
Again, though, let me go back. The goal in September is not 
whether the violence has been significantly reduced or 
stability has been brought, it seems to me, but rather whether 
it has been reduced to a level that the political 
reconciliation process is moving forward in some meaningful 
way.
    But I think we will have a presence in that area. We 
certainly will have a naval presence. That was one of the 
reasons I recommended and sent a second carrier strike group 
there, was to reassure our friends and allies in the region 
that the United States is going to have a continuing presence. 
But my view would be that it is very likely the United States 
will be required to have some level of troop presence in Iraq 
for some period of time, but it has to be at a level in my view 
that can attract bipartisan support.

                      RELIABLE WARHEAD REPLACEMENT

    Senator Feinstein. Thank you. That is very helpful.
    Let me move on if I might to a program that has a 370-
percent increase in your budget, and that is the Reliable 
Warhead Replacement Program. The 2007 continuing resolution has 
$24.8 million and the request is split this year between the 
National Nuclear Security Administration, $88.8 million, and 
the Department of Defense, $30 million.
    Now, a December 2006 request by the national laboratories 
found that the plutonium pits have a life span of at least 85 
years. And as we know, the warheads are certified as safe 
virtually every year.
    I believe very strongly that in order to move ahead with 
RRW, Defense must be clear about long-term stockpile needs, 
including size, weapons characteristics, and diversity. The 
proposal before us does not do this. Many of us believe that we 
ought to carry out a comprehensive assessment of United States 
nuclear weapons policy, and that is Secretary Kissinger, 
Secretary Schultz, who I think have been, Senator Nunn, have 
been very definitive, and the impact on national security goals 
and international nuclear nonproliferation efforts.
    Do you agree with this or not?
    Secretary Gates. Well, I do not know if a national 
commission is required or a major study. We certainly owe you 
answers to the questions that you have posed in terms of 
stockpile and reliability and so on, and we are certainly 
willing to have a dialogue with you about the path forward on 
this. I think there have been a number of diplomatic 
interactions both with our allies and with the Russians and the 
Chinese about it, so it is not like we are trying to do 
something behind the curtain, as it were.
    I think the key here is ensuring that we have, in a world 
where a growing number of nations seem to be interested in 
having nuclear weapons, that we have a reliable stockpile and 
that we can count on the reliability and safety without testing 
and that it can be done through technical means and not actual 
tests. But we certainly, as a starting point, owe you answers 
to the questions you ask.
    Senator Feinstein. I know my time is up. I think that would 
be appreciated. I have had the classified briefing on the 
changes to be made and essentially, in my judgment at least, 
the changes to be made constitute a new nuclear warhead and I 
think it is not just safety. I think we have to come to grips 
with that and what this does to nonproliferation efforts.
    So I would certainly welcome that discussion. I do not 
believe I am the only one here that feels that way.
    Thank you very much.
    Senator Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Secretary Gates, General Pace, I appreciate your honesty 
with us today in all of your comments so far.
    Secretary Gates, I want to ask you about the budget 
request; it includes $4.7 billion to train and equip security 
forces in Afghanistan and Iraq. Can you tell me how much of 
that is for Iraqi security forces?
    Secretary Gates. $2 billion.

                         IRAQI SECURITY FORCES

    Senator Murray. $2 billion. Our troops have been training 
forces now for more than 4 years in Iraq. In your opinion, 
where are we in having an Iraqi security force that is able to 
stand up on its own?
    Secretary Gates. I think we have made a good deal of 
progress. The numbers of troops that have been trained--I am 
just searching for the information here. We have--the 
authorization for the Army is 175,000. We have trained and 
equipped 144,000, so we are at 82 percent, with the completion 
date scheduled for December.
    Senator Murray. We have been hearing those numbers for 
several years. Is this more accurate than it used to be?
    Secretary Gates. No, I think these are--I do not know that 
there is a change in the numbers.
    General Pace. If I may help, sir.
    Secretary Gates. Yes.
    General Pace. Senator, if I might help, we originally had a 
plan to have 325,000 total Iraqi armed forces, both police and 
military, trained by December 2006. That goal was reached. In 
the process of getting to that goal, Mr. Maliki's government 
wanted to increase the size of its armed forces by another 
40,000, partially to build 2 more divisions, go to 12 divisions 
instead of 10, and partially to man his current units at 110 
percent so that he can have an effective force in the field.
    Senator Murray. But what is the date that you expect this 
to be completed? When will we reach this goal?
    General Pace. We will reach the completion of the current 
proposed size of the Iraqi army by the end of this year, ma'am.
    Senator Murray. By the end of this year.
    General Pace. And for the first time this year--correction. 
This is the second year in a row now where the Iraqi government 
has put more money into building their army than we have.

                    PROGRESS ON POLITICAL BENCHMARKS

    Senator Murray. Secretary Gates, I agreed with your 
comments that you made during your trip to Baghdad last month 
where you said that the U.S. military commitment in Iraq is not 
open-ended and the clock is ticking. I wanted to ask you if you 
have seen any progress on the political benchmarks that have 
been set for the Iraqi government, the oil revenue sharing, 
national reconciliation, new elections? Have you seen any 
progress at all?
    Secretary Gates. There has been some movement on some of 
the legislation. It clearly has not moved as far or as fast as 
we would like. I think that there are some things that are 
happening in the political arena that do not go directly to 
legislation, but that are encouraging. There was a report in a 
Baghdad newspaper just a couple of days ago that Prime Minister 
Maliki is going to begin consulting with the Presidential 
council. He has clearly taken it aboard on a regular basis, 
including Vice President Hashemi, a Sunni, where there has not 
been as much dialogue there as we would like.
    Clearly, we have, a variety of us, have made clear to the 
Iraqis that it would be a very bad idea for the council of 
representatives to take a recess in July and August. I will be 
blunt. I told some of the Iraqis with whom I met that we are 
buying them time for political reconciliation and that every 
day we buy them, we buy it with American blood, and that for 
this group to go out for 2 months, it would in my opinion be 
unacceptable.

                          TROOP MENTAL HEALTH

    Senator Murray. Well, September is not very far away to see 
improvements from here. So I think we are all looking very 
carefully at that, and I appreciate your honesty on that.
    I also wanted to just bring up an issue quickly. According 
to the Defense Department's Task Force on Mental Health, more 
than one-third of our troops and veterans suffer from TBI and 
post-traumatic stress disorder (PTSD). Last Friday the task 
force reported that the system of care for psychological 
healthcare that has evolved in recent decades is not sufficient 
to meet the needs of today's forces and their beneficiaries and 
will not be sufficient to meet the needs in the future.
    I have been out to our military hospitals and, Secretary 
Gates, I have been very concerned because I have been hearing 
directly from soldiers that they feel that the effects of PTSD 
are being dismissed by military care providers as being all in 
their head. I heard that over and over again. I want your 
assurance today that we would make sure that that was not being 
told--it is stigma enough and it is difficult enough for these 
soldiers. We want them to get the care they need, and I hope 
that you can put some focus on that throughout the system.
    Secretary Gates. Senator, I can assure you that the senior 
leadership of, and particularly the medical leadership, of the 
Army has taken this aboard, is very serious about it. One of 
the suggestions that I have had--I am worried that when they do 
these surveys with soldiers that come off of a deployment they 
are so eager to get home they are going to check all the right 
boxes so that they can get home. One of the things that I have 
suggested is that they give each returning soldier just a piece 
of paper that lists all of the symptoms, that basically says: 
This is a common problem and it is not a sign of weakness; a 
lot of your buddies have this problem; here are the symptoms 
and here is who to call if you have these symptoms, in addition 
to whatever review there is at 3 months and 6 months and before 
redeployment and so on.
    One of the recommendations of the internal review group 
that just reported to me last week was the creation of a center 
of excellence for both TBI and for post-traumatic stress. That 
is something I take very seriously. I just was at the center 
for the Intrepid last week and I think it is a great model for 
what we might be able to do here in terms of both patient care 
and combining private and public research and treatment.
    So I think that this is taken very seriously by the 
leadership of the Department and by the military leadership. It 
is not a sign of weakness. It is not all in their heads. It is 
real and we need to get them the treatment they deserve.
    Senator Murray. Well, I really appreciate that answer and 
would hope that I can talk to you later, because I am concerned 
that we do have some people in the military closer to the 
ground level who have a macho attitude that it is all in your 
head. I think that is very dangerous. So I do appreciate your 
comments.
    Thank you very much.
    Senator Inouye. Thank you very much.
    The vote has started. Senator Dorgan

                    APPREHENDING AL-QAEDA LEADERSHIP

    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, let me ask a question I have asked 
previously, on the issue of the threat to our country. The 
Director of Intelligence recently said, and I think I am 
quoting him accurately: ``The greatest terrorist threat to our 
country is the threat from the al-Qaeda leadership and its 
network around the world.''
    As you know, the al-Qaeda leadership boasted about carrying 
out the attacks on our country and they still exist apparently 
somewhere in northern Pakistan or somewhere near some border 
area. Some years ago I was in Afghanistan. I know that there 
was an interdisciplinary military unit interested in 
apprehending the al-Qaeda leadership. Are there military 
missions prosecuting that action as well at this point?
    Secretary Gates. Yes, sir. We are still going after al-
Qaeda leadership. It is in a difficult area both in terms of 
terrain and in terms of the politics, in terms of our ability 
to range freely in that area. Most of it is in, as I indicated 
earlier, in the western part of Pakistan in the federally 
administered territories. But we do have military operations 
that are planned both in Iraq and elsewhere in the region, not 
just in North Waziristan and Iraq, but in other places as well, 
to go after al-Qaeda leadership.
    Senator Dorgan. And that remains a priority?
    Secretary Gates. Yes, sir.
    Senator Dorgan. Let me ask a question that my colleague 
from Alabama had asked about. Some years ago when I came to the 
Congress I joined something called a defense reform caucus 
because I was interested and dismayed in some respects at 
seeing the intramural politics in the Department of Defense, 
with every branch of the service wanting to do everything. For 
example, every branch wants to fly, every branch wants to do 
this and that.

                   UNMANNED AERIAL VEHICLE OVERSIGHT

    With respect to UAVs, it occurred to me that it is quite 
clear that the Army would want to have low-level UAVs over a 
battlefield that they can control from a tactical standpoint. 
It is not clear at all why the Army has been spending money 
designing a Warrior to fly at 20,000 feet that looks exactly 
like and I think will perform exactly like the Predator, which 
is the Air Force mission.
    So it appears--and I asked General Schoomaker about this 
and he sent me what I would expect to be a typical response: 
This is something the Army wants to do. But it appears to me 
that we have duplicated the investment in research and 
development of two UAVs that the Air Force has on the Predator 
and the Army wants of its own with the Warrior. It makes no 
sense to me. Would you look into that? Or maybe one of you can 
tell me why we are duplicating these efforts.
    Secretary Gates. Sir, a fair point, and we are looking into 
this. That is exactly what I have tasked the Joint Requirements 
Oversight Committee to get back to me on, because you are 
right, we have had over time more than 100 different variants 
of unarmed aerial vehicles. The two you are talking about are 
made by the same company, and we need to get it right with 
regard to how many different variants we need and how we 
control the air space and how we deliver product to the soldier 
and marine on the battlefield, sir. And you are right to be 
concerned about duplication.
    Senator Dorgan. UAVs are very important. I think they are 
going to play a significant role. I just do not want the 
services duplicating research and development. The taxpayer 
ends up paying for that.

                                 B-52S

    A quick question. B-52s. The U.S. House last year in its 
deliberations said that you shall not reduce the number of B-
52s below 76. The Senate agreed with that and yet the budget 
reduces them to 56. As you know, the earliest possible date we 
might have a new bomber would be 2018. I do not think that will 
happen, but it might be the earliest possible date. We used 
over 80 B-52s in the most recent Iraq war, 140 in the gulf war 
before that.
    I do not understand the recommendation here and I think the 
Congress likely will keep 76 B-52s so that we do not put 20 in 
the bone yard and then hear there is a bomber gap very quickly. 
If that is the case, how do we pay for that?
    General Pace. Senator, I need to get back to you, sir. I do 
not have that in my head. I do know the recommendation was 
made. I do know it was based on projections of x amount of 
ordnance being delivered over y amount of time. But I do not 
have a precise answer for you yet, sir.
    [The information follows:]

    It is particularly challenging to manage an aging bomber 
fleet while simultaneously transforming to face emerging 
threats. We are pursuing a balanced approach that focuses on 
transformation and recapitalization while managing operational 
risk.
    An important component of our Nation's security is the 
operational ability to project combat power over long distances 
and long durations with adequate payloads. To meet this 
requirement, the Air Force's three-phase strategy for long-
range strike modernizes current bombers, develops a 
complementary capability fielding in 2018 and continues 
technology development for a transformational capability in 
2035. Integral to the three-phase long-range strike strategy is 
divestiture of 20 B-52s as reflected in the fiscal year 2008 
President's budget. The 56 B-52s funded in the program of 
record are capable of meeting any single combatant commander 
requirement, but provide an estimated $1.44 billion cost 
avoidance across the Future Years Defense Plan.

    Senator Dorgan. Well, let me thank both of you. These are 
difficult times and all of us want the same for our country. We 
want our country to succeed. We have got people strapping on 
body armor this morning, going out and facing live ammunition. 
This Congress is going to provide the funding that is necessary 
and some more for MRAPs and some more for medical, 
hospitalization, and so on. We have an obligation to do that 
and from my standpoint we will do that.
    Secretary Gates. Thank you, Senator.
    Senator Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Thank you very much, Mr. Secretary, for being here, and 
General Pace, and discussing your budget request for the next 
year.
    There was some disturbing news this morning that I heard 
about alleged or suspected terrorists in the United States 
getting armaments and weapons to attack military forces here in 
the United States. It reminded me that we have a new Department 
of Homeland Security, still relatively new. Is there a degree 
of cooperation between our military forces, the Department of 
Defense, and the Department of Homeland Security to 
successfully discover things like this and then deter an 
attack.

                                FORT DIX

    Secretary Gates. Let me give a quick answer and then ask 
General Pace to follow up. The answer to your question is yes. 
I think that this operation relating to Fort Dix was an 
extraordinary piece of law enforcement work by the Federal 
Bureau of Investigation (FBI). We work closely, particularly in 
the National Counter-Terrorism Center, with the Bureau, with 
Homeland Security, with the Central Intelligence Agency (CIA), 
and the other parts of the intelligence community. So I think 
some of the changes that have been made in the restructuring 
and the creation of that group by the Congress has contributed 
to that kind of sharing of information and working together.
    General, do you want to add anything?
    General Pace. Sir, there has been good progress there, a 
very good relationship between the Department of Defense, 
Department of Homeland Security, exceptional relationship with 
Northern Command underneath Admiral Renuart now. Example is 
exactly what you pointed out, Fort Dix, and when that 
information was put into the system not only did it result in 
the actions taken at Fort Dix, but also nationally with regard 
to all of our military bases being alerted and taking a look 
and scrubbing their current procedures.
    One additional factor is that Secretary Chertoff right now 
has a team that he has put together to see for the kinds of 
things that the Department of Homeland Security would need to 
do internal to the United States, what kinds of capacities do 
we need that agency to have, and of those what do they not 
have, and of those which should the Department of Defense be 
looked to provide. So we are working very carefully with them 
to make sure that our Guard and Reserve forces have the 
capacity needed to be able to respond in support of a civilian 
lead inside the United States.

                        RECRUITING AND RETENTION

    Senator Cochran. I realize that during a time of war it 
might be natural to resist a call to serve in the military 
forces. But it reminds me that we do not have a draft in place. 
We do not have conscription. We are operating, with your 
leadership, on an all-volunteer force. I know in the budget 
request you have money that you request in order to carry out 
recruiting and retention efforts. What is the status of that? 
Is there enough money requested in your budget to address this 
and to assure that we are going to have the troops that we need 
in the future to not only wage war on terror internationally, 
but to protect our security interests across the board?
    Secretary Gates. Yes, sir. There is about I think $4.3 
billion or $4.4 billion in the budget for recruitment and 
retention. I am happy to report to you that the active 
component, that all the active components of the military, met 
their recruiting targets in April. The Army National Guard is 
at about 94 percent for April, but they are over 100 percent 
year to date. The Army Reserve is struggling a little bit, but 
I think in part it is because they are competing with the Army 
National Guard and the Active Army in recruiting from the same 
pool of young men and women.
    The Marine Corps has exceeded their recruitment objectives. 
The first--in terms of retention, the first reenlistment, we 
are over 100 percent of the goals. We are about 94 percent of 
the goal for the second reenlistment.
    So I would say--and these are people who are enlisting 
knowing exactly what they are getting into and knowing exactly 
where they are going to end up having to fight. So these are 
young people who are signing up knowing the challenges that 
they are going to face, and it is an extraordinary tribute to 
the quality of these young people in America today that are 
willing to do this.

                            MISSILE DEFENSE

    Senator Cochran. We appreciate your leadership and 
management of the Department of Defense and the 
responsibilities that go with that. I notice in your budget 
request you also have a substantial request for additional 
funds for a missile defense program continued to develop and 
deploy those resources. Connected with that, I saw the Patriot 
missile system mentioned, and also was reminded of the fact 
that when we had the service chiefs before our subcommittee the 
other day they talked about the success of the program to 
develop a capability to defend troops against missile attack 
and our national interests against the emerging threats.
    Are you concerned that we have enough of a robust missile 
defense initiative included in this budget to meet our goals 
and to further strengthen our ability to protect ourselves in 
these situations?
    Secretary Gates. Yes, sir, I think that the program is 
quite adequately funded. It is about $8.9 billion for missile 
defense and about another billion for the Patriots. I think the 
general feeling in the Department is that that is an 
appropriate level.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens [presiding]. The Senator from New Mexico, 
do you wish to be recognized?
    Senator Domenici. Yes. Thank you very much. I did not think 
I was going to get back in time, and I know time is short.

                      RELIABLE REPLACEMENT WARHEAD

    Mr. Secretary, I understand you answered a question from 
Senator Feinstein regarding our reliable replacement warhead 
(RRW). I have another question on the same subject that I will 
submit and ask that you answer it.
    Secretary Gates. Yes, sir.
    Senator Domenici. Second, I submitted on April 17 a letter 
to you about the position, your position on the RRW, the new 
potential warhead. I would greatly appreciate it if you would 
give us some idea of when that might be answered. We need to 
know whether the people in the administration and in the 
Department of Defense support this. It has been presented by 
less than a hierarchy for us to review in committees, and we 
need to know if you and the various secretaries support it.
    Secretary Gates. Senator, we clearly somehow have a failure 
to communicate. I think I signed that letter out to you last 
week, and we will follow up with your staff and find out where 
it is.

                         CANNON AIR FORCE BASE

    Senator Domenici. Very good.
    My last question has to do with the city of Clovis and the 
base there, Cannon Air Force Base in Clovis, New Mexico. It is 
now waiting to be equipped so that it can become a new kind of 
base. As you know, it was put in kind of a wait and see 
position. When they finished all of the work on determining the 
closures, they decided it should not be closed, but it should 
be used for a new kind of Air Force special operations base, 
with all kinds of equipment.
    I need to know whether you are going to support that, 
because we need to get the money to do the things that will 
make it a fully operational base, and that is terribly 
important for the future of Cannon. If you would look into 
that, I submit a question to you on that subject.
    Secretary Gates. Yes, sir.
    Senator Domenici. Thank you. And I am sorry I am so mumbo-
jumbo, but we are out of time. Thank you.
    Senator Feinstein. Mr. Secretary, General Pace, we 
appreciate your testimony today as we begin to formulate our 
recommendations for the fiscal year 2008 defense appropriations 
bill. We hope we can call upon you for additional advice.

                     ADDITIONAL COMMITTEE QUESTIONS

    The chairman has questions he will submit for the record, 
and maybe other members also.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Robert M. Gates
            Questions Submitted by Senator Daniel K. Inouye
                       executive agency for uavs
    Question. Secretary Gates, the Air Force has developed a proposal 
to be designated the Executive Agent for all medium- and high-altitude 
unmanned aerial vehicles. Some believe that an Executive Agent for UAVs 
would increase efficiency, but others are concerned about an impact on 
specialized roles and missions for UAVs in other services. What is your 
view?
    Answer. The subject of an executive agent for all medium- and high-
altitude UAVs is currently under review, but has not yet been 
completely evaluated. This impartial review will determine whether the 
designation of a single military department as executive agent for UAVs 
for the Department of Defense would serve as the best means of 
eliminating unnecessary duplication of effort and increase 
efficiencies.
               army guard and reserve mobilization policy
    Question. Secretary Gates, in January you announced that the Army 
Guard and Reserve will transition from 18 to 12 month mobilization 
periods. The Guard and Reserve plan to perform a significant portion of 
the pre-deployment training at home station or at nearby facilities so 
that reservists will be able to be deployed in theater for 10 months 
out of their 12 month mobilization period. What steps are being taken 
to provide the Guard and Reserve with the equipment, personnel, and 
facilities needed to train their soldiers prior to mobilization?
    Answer. With respect to equipment: In preparing the Guard and 
Reserve components for deployment, the Army has an equipping strategy 
that utilizes the Army Force Generation model in determining readiness 
requirements as well as the Army Resource Priority Listing process in 
determining equipment priorities within the Army. All units will have 
the necessary equipment for training prior to ``Boots on the Ground.'' 
With the four transitional Brigade Combat Teams (BCT) currently 
identified for deployment in 2008 (39th Infantry BCT--AR, 45th Infantry 
BCT--OK, 76th Infantry BCT--IN, 37th Armored BCT--OH), a hybrid 
solution is required. The equipment will be provided at each of their 
annual training site, pre-mob training site, and post-mobilization 
training site.
    With respect to facilities: In order to shorten the training time 
at the mobilization sites, it is imperative to have facilities that 
support that effort. The highest priority for the Reserve components is 
where they work and train. Although BRAC 2005 attempts to consolidate 
the Reserve Centers, this effort will not be completed until 2011. 
Nevertheless, we are focusing construction dollars remaining, after 
BRAC, for pre-mobilization training requirements. Facilities are being 
designed that incorporate training spaces, classrooms, and electronic 
infrastructure, to include modern computer and video capabilities. 
These facilities, when completed will be a mobilization enabler for the 
Reserve components.
    Question. Mr. Secretary, the new mobilization policy was put into 
effect immediately following your announcement, even though there were 
still a large number of details to resolve. Are you concerned that 
implementing this policy before a system has been put in place could 
compromise the readiness of deploying guardsmen and reservists?
    Answer. The Army strives to ensure every deploying unit and each 
guardsmen and reservists that deploys is certified to be combat ready. 
The new mobilization policy allows the Reserve component service member 
the predictability to know that he/she will be away from work, school 
and family for no more than 12 months and does not sacrifice the 
deployment standards for any unit.
                             strategic lift
    Question. Secretary Gates, the Department may be at a crossroads in 
its strategic lift plans. Costs for the C-5 reliability and re-engining 
program have grown significantly and, while the C-5 situation is 
unclear, the C-17 Globemaster production line will start shutting down 
in fiscal year 2008. At the same time, Army and Marine Corps increases 
in force structure could increase the demand for lift. What actions are 
you taking to refine your strategic lift strategy--and will we be 
updated prior to July 2007?
    Answer. Our next planned update to the Mobility Capabilities Study 
will commence in 2008. Any changes to the Defense Strategy that may 
affect strategic airlift will be assessed at that time. The current 
Department assessment is that the demand on strategic airlift resources 
is not affected by the growth in land forces for rotational employment, 
but is rather driven by the Defense Strategy. Therefore, current and 
programmed C-17 buys and C-5 upgrades continue to provide the 
Department with sufficient assets to carry out today's Defense Strategy 
with acceptable risk.
    Question. Secretary Gates, the Air Force has briefed staff on a 
``30/30'' plan to retire 30 C-5As and buy 30 C-17s. What are your views 
on this plan?
    Answer. The Air Force has not presented its ``30/30'' plan to my 
staff for review. While there may be advantages associated with this 
concept, the Department needs to evaluate it, as well as other options, 
prior to deciding on a course of action.
                          mental health issues
    Question. Secretary Gates, recent findings by the Mental Health 
Advisory Team show that multiple and longer deployments result in more 
mental health problems for soldiers and Marines such as combat trauma, 
anxiety and depression, and cause more marital distress within military 
families. It also found that soldiers and Marines with mental health 
problems were more likely to violate ethical rules. How do you balance 
and reconcile these results with the recent decision to increase the 
length of Army deployments from 12 to 15 months?
    Answer. Repeated and longer deployments in combat environments are 
inherently stressful. While the Army advisory team noted a correlation 
between combatants surveyed for mental health symptoms and ethical 
behaviors, it did not establish causality of the association. It is not 
clear at this point whether behaviors in combatant activities result in 
mental health symptoms or mental health symptoms result in ethical 
violations. We intend to conduct further research and in-theater field 
investigations to better understand and treat these issues.
    Psychological injuries during combat operations are one of the 
inevitable costs of war and must be considered in the same fashion that 
physical injuries are considered. We grieve every injury and 
aggressively identify and treat such injuries to the best of our 
abilities.
    Question. What steps would the Pentagon take to improve junior-
level leadership and increase psychological training for military 
personnel?
    Answer. Steps to improve psychological training for all Service 
members are continuous. In addition to training received in 
professional leadership development courses and suicide prevention 
programs, the Department of Defense (DOD) rolled out the Front Line 
Supervisors course in March 2007 by training trainers for all Services. 
It is a half-day course that sharpens supervisors' skills to better 
know their subordinates and to identify signs of psychological stress 
and appropriately respond to them.
    In addition to the Front Line Supervisors' course, the three 
branches have fully implemented the Leaders Guide for Personnel in 
Distress, with the Marine Corps currently preparing their version of 
the program. These programs are formatted for both the web and compact 
disk. The Marine Corps also developed a small book for leaders. They 
cover 30 categories of stressful events commonly encountered by Service 
members; describe behaviors of concern for each, recommended responses 
and questions, and the specific actions to take within each Service, 
including appropriate referrals.
    Looking to the future, a peer support system is being further 
developed for implementation across the DOD. In addition, the DOD is 
considering the development of a career path for military occupational 
psychologists who would be assigned to units, not just to medical 
programs. They would provide consultation to leaders, assist in the 
development of training programs to enhance resiliency, make 
recommendations regarding organizational employment of its human 
assets, and provide a dedicated professional sensor for those in 
trouble within such units.
    Question. Secretary Gates, I am told that you have an on-going 
review with the Director of National Intelligence, Admiral McConnell, 
concerning the possible dual-hatting of the Under Secretary of Defense 
for Intelligence to report to both you and the Director. What are your 
views on this idea and the balance of authorities between the Director 
of National Intelligence and you, the Secretary of Defense?
    Answer. I fully support the idea. Director McConnell and I signed a 
Memorandum of Agreement dual-hatting the Under Secretary of Defense for 
Intelligence as the Director of Defense Intelligence under the Director 
of National Intelligence. This reflects our collective strong 
commitment of cooperation and shared goal of improving the intelligence 
community. The agreement recognizes the crucial importance of 
coordinated intelligence efforts to the national security of the United 
States. The Defense Intelligence Components provide a full range of 
intelligence products and analysis to a broad spectrum of consumers 
from military forces in the field to senior policy makers across the 
federal government. These efforts are intertwined with the National 
Intelligence efforts overseen by the Director of National Intelligence.
    As the Director of Defense Intelligence, Mr. Clapper will report 
directly to the DNI and serve as the principal advisor to the Director 
of National Intelligence regarding Defense Intelligence matters. The 
Director of Defense Intelligence will have responsibilities as 
determined by the Director of National Intelligence in consultation 
with me and promulgated separately.
    As the Under Secretary of Defense for Intelligence, Mr. Clapper 
will report directly to me and retain the responsibilities and exercise 
the authorities as assigned by me and his focus will remain on 
providing the best intelligence possible to the warfighter.
                           u.s. space policy
    Question. Mr. Secretary, in August 2006 the President released an 
updated policy on space, which keeps the doors open to offensive space 
capabilities. The United States continues to reject United Nations 
negotiations that would prevent the militarization of space. Indeed, in 
this year's budget request, the Missile Defense Agency has a request 
for $10 million for a space-based test bed. Against this backdrop, in 
January the Chinese destroyed one of its own satellites with an anti-
satellite weapon. While we decry the Chinese action what direction is 
the Department of Defense heading in, with regard to the weaponization 
of space?
    Answer. Space capabilities have become integrated into our daily 
lives and are vital to our national security and the global economy. At 
the same time, potential adversaries continue to seek means to counter 
the advantages we obtain from space and to use space capabilities 
against us. Our space capabilities face a wide range of threats 
including radio frequency jamming, laser blinding and anti-satellite 
systems. The maturation of these threats, including China's anti-
satellite capability, will require a broad range of capabilities, from 
diplomatic to military, to continue to protect free access to and 
peaceful use of space for all space-fairing nations.
    The United States does not agree that new legal regimes or arms 
control agreements related to space ``weaponization'' would be helpful 
in protecting U.S. national security interests. None of the last five 
Administrations have been able to overcome the complexities of defining 
a ``space weapon,'' or to identify meaningful verification and 
compliance mechanisms without artificially limiting peaceful and 
practical uses of space.
    The U.S. approach to meeting these challenges is guided by the 
National Space Policy signed in August 2006. The new policy is 
consistent with long standing principles that were established during 
the Eisenhower Administration, such as the right of free passage and 
the use of space for peaceful purposes. The policy does not endorse, 
direct or prohibit the use of weapons in space. It acknowledges that 
space is vital to U.S. national security and directs the Department of 
Defense to develop capabilities, plans, and options to ensure freedom 
of action in space, and if directed, deny such freedom of action to 
adversaries. Our investment strategy for space and space-related 
activities is a balanced approach to achieving these capabilities. Our 
space control investment strategy, for example, balances the need for 
space situational awareness, protection of our space capabilities and 
protection of terrestrial forces and the homeland from threats posed by 
adversary use of space.
                        national guard equipment
    Question. Secretary Gates, we have heard concerns that part of the 
problem is that funds intended for Guard equipment are sometimes 
diverted to other purposes. What can be done to insure that the funds 
intended to equip the National Guard actually reach their destination?
    Answer. Although the President's budget request segregates funding 
in the Military Construction, Operations and Maintenance, and Personnel 
accounts by Reserve component, the Reserve component procurement 
accounts are consolidated within the Active component funding. While 
separate appropriations would provide Congress the transparency and 
accountability it seeks, it would also restrict the Department's 
ability to respond to dynamic and emergent requirements.
    The Department can track Reserve component appropriations and 
execution internally without separate appropriations as we have done in 
the 2007 and 2008 Supplemental requests.
    The Department executes the Congressional National Guard and 
Reserve Equipment Appropriation to the fullest extent possible. These 
funds, provided by Congress are above the President's budget request 
and are specifically for Reserve component's equipment procurement. 
Also, these funds are managed independent of the Active components' 
procurement accounts.
                          deployment policies
    Question. Secretary Gates, recently you announced that Army 
deployments to Iraq and Afghanistan will be extended to 15 months. This 
policy will also affect soldiers currently in theater who had planned 
on returning home three months earlier. How do you think this will 
affect morale, considering that Marines will continue 7 month 
deployments and Army guardsmen and reservists 10 month deployments?
    Answer. I have directed our Active component Army soldiers to 
temporarily extend in Theater for three months in order to allow them 
to remain at home for a minimum of 12 months. This commitment provides 
predictability for the soldier who now knows when he/she will deploy 
and when he/she will return home. I believe the soldier and families 
understand the need to temporarily extend Army deployment times and 
appreciate the predictability it present.
    Question. Mr. Secretary, do you believe that it will be problematic 
to deploy Army guardsmen and reservists for a different duration than 
active soldiers?
    Answer. The Services have all maintained different deployment 
durations as part of their force generation model and have been able to 
meet deployment requirements. My commitment to have a 12 month 
mobilization for the Reserve component recognizes the different 
characteristics of the Reserve component and Active component. There 
may be challenges associated with the new deployment duration in 
rotation planning but nothing that cannot be overcome.
                     science and technology funding
    Question. Secretary Gates, the fiscal year 2008 request for science 
and technology funding represents only 2.2 percent of the total DOD 
budget. This is down from 2.5 percent in fiscal year 2007. Is this 
level of funding sufficient to maintain our leading technological edge 
in the future?
    Answer. The fiscal year 2008 Science and Technology (S&T) request 
is 2.24 percent of the DOD Total Obligational Authority. This apparent 
reduction from last year's percentage is the result of an fiscal year 
2008 top line increase to support procurement and operations and 
maintenance costs, primarily for the Army and Navy Departments in 
support of the ongoing war on terrorism.
    Our S&T investment is properly sized to support fundamental 
technology development. It retains sufficient flexibility to realign 
funding to address new technology areas, as demonstrated by our ability 
to reshape the S&T program to address transformational gaps outlined in 
the 2006 Quadrennial Defense Review. The fiscal year 2008 request 
represents a stable investment, balanced with other Departmental 
priorities.
    Question. Secretary Gates, how can we attract and retain the next 
generation workforce of scientists and engineers in an era of 
constrained resources?
    Answer. The technological superiority enjoyed by our armed forces 
on the battlefield today is not a product of short-term investment. 
Rather it is the culmination of decades of accrued Research and 
Development (R&D) investment in a broad spectrum of fundamental areas. 
The next generation of science and engineering talent, their number, 
educational levels, skills, and capability to perform defense work is 
the direct result of efforts and investments already made over the last 
10 to 20 years. Thus, any measurable impact on the next decade should 
demand a similar, continuing, multi-point investment such as that found 
in the National Defense Education Program (NDEP). NDEP's investment 
approach is in concert with the 2006 National Academy of Sciences' 
``Rising Above the Gathering Strom'' report recommendations (A-3 and C-
2) for K-20-based approaches to national workforce challenges. Under 
NDEP, DOD provides stimulation, encouragement, exposure, incentives, 
and financial support to middle school, high school, undergraduate, 
graduate, and faculty levels.
    The Department has unique requirements for clearable, high-quality 
scientists and engineers who are educated in the physical sciences, 
facile with technology, and employed in DOD programs. The DOD Science, 
Mathematics, and Research for Transformation (SMART) program (one part 
of NDEP) supports advanced education of qualified people. SMART 
requires a post-graduation civil service agreement commensurate with 
the financial support provided. This agreement is directly analogous to 
Service academy agreements for post-graduation active duty and its 
service condition is not onerous. In the current cycle, more than 1,200 
fully qualified people applied for approximately 60 SMART awards. In 
budget-constrained times, providing targeted, educational assistance 
that secures a guaranteed payback service period is a sound policy that 
will help build the clearable future workforce we need to maintain our 
technological superiority.
    Retaining these valuable people in today's intensive, high-
technology environment is a continuing mission that depends on multiple 
factors such as adequate compensation, intelligent management, modern 
facilities, tools, and state-of-the-art equipment. In the end, 
retention may hinge primarily on the work itself. Defense science and 
engineering work that is directly connected to national security, 
mission-oriented, well managed, and appropriately funded should create 
an environment in which the workforce becomes self-retaining.
                       tricare efficiency wedges
    Question. Secretary Gates, the fiscal year 2008 budget for the 
Defense Health Program assumes $507 million in savings in military 
treatment facilities from so-called ``Efficiency Wedges''. In light of 
the recent problems at the Walter Reed Army Medical Center, which 
showed a clear funding shortfall in the current health system, and with 
the anticipated increase in the number of injured service members 
returning from the battlefield with severe injuries, why is DOD 
mandating savings in this critical area at this particular time?
    Answer. The fiscal year 2006 Defense Health Program Budget was 
reduced by $94 million in anticipation of efficiencies accomplished by 
the Services that would decrease costs. During the execution of the 
fiscal year 2006 budget, efficiencies were achieved through a 
combination of implementing the TRICARE Uniform Formulary, which 
decreased drug expenditures in the direct care system for all three 
Services, and the following Service specific initiatives:
  --The Army Medical Department focused on increasing inpatient and 
        outpatient market share, and rewarded successful facilities 
        with additional resources earned through the Prospective 
        Payment System.
  --Navy Medicine focused on the consolidation of dental activities 
        into the organization structure of their MTFs, enabling 
        elimination of duplicative overhead activities and the 
        achievement of staffing efficiencies in dental and support 
        areas.
  --The Air Force Medical Service focused on elimination of inefficient 
        inpatient care facilities, with reinvestment of personnel at 
        locations where significant workload recapture potential 
        exists.
    For fiscal year 2007 and fiscal year 2008, the focus is for the 
Services to continue to build on the fiscal year 2006 efficiencies that 
were initiated and to continue to realize savings in pharmacy 
expenditures produced by the TRICARE Uniform Formulary. In addition, 
the Director, TRICARE Management Activity and the Service Surgeons 
General are taking action to identify opportunities for efficiencies by 
identifying the most critical mission activities and then applying Lean 
Six Sigma methodology to achieve process improvements.
    Note the fiscal year 2008 incremental increase in the Efficiency 
Wedge was reduced from $248 million to $227 million to account for an 
overlap in cost reductions targeted for a different initiative.
    Question. What steps has DOD taken to improve current military 
treatment facilities and cut down bureaucratic paper work for injured 
service members?
    Answer. To date, the Department of Defense (DOD) has made the 
following operations and maintenance and military construction 
investments to improve current military treatment facilities: fiscal 
year 2003--$576.5 million; fiscal year 2004--$589.2 million; fiscal 
year 2005--$962.7 million; and fiscal year 2006--$1210.3 million.
    There is noted redundancy in many of the Disability Evaluation 
System forms utilized by the Military Departments. As such, the 
Military Departments are working to reduce and simplify forms required 
for the Medical Evaluation Board and Physical Evaluation Board ensuring 
that they are legally sufficient but not redundant or superfluous. The 
Military Departments are also examining various automation systems to 
enable electronic transfer of documents and case oversight.
                         supplemental budgeting
    Question. Secretary Gates, there used to be a more clear 
distinction between regular budgets and Emergency Supplementals. The 
delineation was understood--only true emergencies such as disaster 
relief and contingency operations were funded via supplemental 
appropriations. Today, the distinction is blurred. Could you tell us 
your views on the distinction between what should be funded in the 
regular budget versus supplemental budgets?
    Answer. I agree generally that supplementals ought to be reserved 
for true emergencies such as disaster relief and contingency 
operations. The President's fiscal year 2008 budget request is 
consistent with that idea--in that he included estimated incremental 
costs for the Global War on Terror.
                           army modernization
    Question. Secretary Gates, while the Army is fully committed to 
operations in Iraq and Afghanistan, it is also addressing major 
institutional challenges to transform. Is the Army adequately resourced 
to successfully reconstitute, transform and sustain readiness? How have 
you assessed the risks to readiness at the projected funding levels?
    Answer. Throughout the year, the Department continues to evaluate 
the readiness of the military for both near and long-term missions. 
Yes, I believe the Army is adequately resourced. Regarding readiness, I 
believe our requested funding will support prudent readiness levels for 
our armed forces.
           defense advanced research projects agency (darpa)
    Question. Secretary Gates, we understand that funding for the 
Defense Advanced Research Projects Agency has been reduced in support 
of other, higher priority research initiatives. DARPA is supposed to be 
at the forefront of technological challenges facing the Department. 
Does this shift in funding imply that DARPA's efforts have not 
addressed essential DOD priorities?
    Answer. DARPA's priorities and focus have not changed, and DARPA 
continues to address DOD high priority areas. As such, DARPA supplies 
technological options for the entire Department and is designed to be a 
specialized ``technological engine'' for transforming DOD.
    Question. Secretary Gates, which metrics do you apply in measuring 
how much of DARPA's efforts ``graduate'', if you will, into Service 
programs?
    Answer. The Defense Advanced Research Projects Agency (DARPA) has 
instituted an approach that links a Service transition partner with the 
program manager early in the development process. As a major factor in 
his decision to fund or not fund a program, the Director of DARPA 
considers the existence of a written Service commitment early in the 
Advanced Technology development. This is a document that is signed by 
the Director and by one or more of his equivalents in the accepting 
Service.
    This method of transition has been effective, and it also provides 
a measurable metric. At the time of the fiscal year 2008 President's 
budget submission, over 85 percent of DARPA's Advanced Technology 
Development programs were covered by either signed commitments, or 
commitments in some stage of preparation.
                              f-22 raptor
    Question. Mr. Secretary, what are your views on the sufficiency of 
the F-22 Raptor buy and the need for two fifth-generation aircraft in 
the Air Force inventory (the F-22 and the F-35 Joint Strike Fighter).
    Answer. The F-22 Raptor and F-35 Lightning II bring unique and 
complementary fifth generation tactical air capabilities to the modern 
battlespace. The Raptor achieves and maintains Air Dominance by 
focusing on air-to-air and Destruction of Enemy Air Defenses (DEAD) 
missions. The Lightning II adds a variety of advanced air-to-ground 
munitions and brings fifth generation attributes to fulfill missions 
such as Close Air Support (CAS), Suppression of Enemy Air Defenses 
(SEAD), DEAD, and Interdiction in high threat environments. Combined, 
these two platforms enable joint operations in environments that would 
be considered denied, ``anti-access'' air space to earlier fourth 
generation tactical aircraft. The F-22, which is now operational, has 
demonstrated superior operational capabilities over previous generation 
aircraft. The 2005 Joint Air Dominance study and the Quadrennial 
Defense Review substantiated the need for a minimum of 183 F-22s. While 
the Air Force has consistently stated that a requirement for 381 to 
meet national security requirements with an acceptable level of risk, 
it is the Department's position that the current program of record 
provides an affordable balance of tactical air capability.
                         satellite acquisition
    Question. Mr. Secretary, the Air Force has yet to demonstrate that 
it has schedule, costs, and quality under control when building 
satellite systems. When systems seem on the verge of recovering from 
years of challenges, DOD reduces the number of satellites and begins 
new, more high tech satellites as replacements to systems that haven't 
launched yet. In this environment, how can the Air Force bring 
stability to space programs and get cost and schedule under control?
    Answer. The Department is committed to the stability of space 
program acquisitions and has taken several measures to improve 
management of these acquisitions. These include implementation of best 
practices such as those recommended by the Young panel and by the 
General Accountability Office (GAO) to separate technology discovery 
from acquisition, following an incremental path to meeting user needs, 
matching resources and requirements at program start, and using 
quantifiable data and demonstrable knowledge to make rigorous decisions 
to move to the next phase of the acquisition process.
    The development of space systems presents special challenges, and 
the Department is addressing these through process improvements. A 
large space system typically takes seven to eight years to develop from 
the time of contract award to launch. In the past, the maturity of the 
technologies that will be relied upon was estimated only at the 
beginning of the development. DOD now re-evaluates these technologies 
for actual maturity prior to committing to the design and development 
phase to ensure risk is minimized. Also, it is natural for requirements 
to adjust and mature over the course of time. In order to stabilize 
requirements so design work can begin, the Department is adopting a 
block approach to satellite development. This approach provides for 
stability in requirements and design in an ongoing development block 
while allowing new capability to be added in future blocks. Finally, 
the Department is stressing the use of management metrics and recurring 
senior level reviews during the execution phase. Closely monitoring 
performance against established metrics provides early notification of 
potential problems at a point when action can be taken at the most 
appropriate time.
    The Department is directly addressing several of the identified 
causes of cost and schedule growth. National Security Space (NSS) 
Acquisition Policy Directive 03-01 mandates an Independent Cost 
Estimate as part of the criteria for progression to each Key Decision 
Point of space programs. NSS 03-01 also requires an Independent Program 
Assessment with increased focus on technical baselines and risk 
assessments. In addition, DOD is taking measures to renew the focus on 
program management, including keeping program managers in place for 
longer periods, development of a space cadre to ensure that 
knowledgeable leadership will be in place for space acquisitions, and 
encouraging development of robust engineering and cost estimating 
expertise in our workforce.
                              shipbuilding
    Question. Secretary Gates, this subcommittee has long been 
concerned with the state of Naval shipbuilding. The fiscal year 2008 
budget request provides funding to procuring seven new ships. Is that a 
build rate that in your view will maintain a fleet that is adequate to 
the nation's needs?
    Answer. The PB08 budget supports the Navy's PB08 Long Range Plan 
for the Construction of Naval Vessels, which outlines the procurement 
of 67 ships over the Future Years Defense Program (fiscal year 2008-
2013). Although the Navy has averaged a build rate between 6 and 7 
ships per year over the past several years, there are an average of 11 
ships per year procured across the FYDP in the Navy's Long Range Plan, 
to include DDG 1000, CG(X), Littoral Combat Ship (LCS), T-AKE, VIRGINIA 
Class SSN, CVN 21, MPF(F), LPD 17, JCC(X), JHSV, and LHA(R). The Navy 
is committed to average annual funding over the long term of $13.4 
billion (fiscal year 2005 dollars). The Navy's yearly budget 
submissions will vary above and below that $13.4 billion average line 
as year to year requirements differ in the production of a balanced 
force structure mix. The procurement profile is designed to minimize 
capability risk and industrial base risk, and pace the threat while 
emphasizing affordability.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd
    Question. Secretary Gates, in the past you have suggested that the 
Department of Defense should be funded at a level of approximately 5 
percent of the Gross Domestic Product. The Congressional Research 
Service has suggested that in constant 2007 dollars, DOD funding, 
including the Global War on Terror, is at or near its highest level at 
any time since 1950. In addition, the growth of the Department of 
Defense budget continues to constitute a larger and larger portion of 
the discretionary budget. How do you justify your claim to such a large 
and growing percent of the Gross Domestic Product? How would such a 
level of funding for the Department of Defense affect the U.S. economy 
and other government-funded programs?
    Answer. The justification for any level of defense spending should 
always be what is needed to safeguard America and its vital interests. 
My responsibility is to recommend a prudent and feasible national 
defense program for achieving that aim. The President and the Congress 
share the heavy responsibility of evaluating America's defense needs 
and deciding what is an acceptable level of security and what is an 
acceptable level of funding given our nation's other needs and possible 
impacts on the U.S. economy.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. Is there a discrepancy between the support our guard and 
reservists receive when they return home and are deactivated compared 
to regular active duty troops? If so, what are we doing to fix it?
    Answer. While National Guard and Reserve members are eligible for 
the same benefits, privileges, and support as regular active duty 
troops upon deactivation, there has long been a concern that these 
members may not have easy access to them due to geographical separation 
from military installations once they return to their home communities. 
The Department and other agencies have initiated many programs to allow 
these Guard and Reserve members and their families to have more access 
to benefits and support services without traveling to a military 
installation. These programs include:
  --The Department of Defense (DOD) Transition Assistance Program (TAP) 
        was designed by the DOD to smooth the transition of military 
        personnel (and family members) leaving active duty. TAP is a 
        partnership among DOD, the Department of Labor, and the 
        Department of Veterans Affairs.
    --The Official Transition Assistance Program Website, 
            www.transitionassistanceprogram.com, includes a section 
            that specifically addresses the transition needs for 
            demobilizing Guard and Reserve members.
    --Information is available 24/7 and mobilizing and deploying Guard 
            and Reserve members are encouraged to use the information 
            prior to, during, and after mobilization and deployment.
    --Also provided on the Website are links to Transition Assistance 
            Offices, a program to allow a member to develop an 
            Individual Transition Plan, a newly developed Pre-
            Separation Guide for Guard and Reserve members, and 
            includes a new Employment Hub.
    --There are also 207 community-based Vet Centers located in all 
            fifty states, the District of Columbia, Guam, Puerto Rico 
            and the United States Virgin Islands.
    --Additionally, the National Guard has provided a full-time 
            Transition Assistance Advisor in each of the 54 states and 
            territories.
  --DOD has established a 24-hour, 7-day a week toll free telephonic, 
        internet and e-mail Quality of Life assistance service 
        (Military One Source), which is designed to help members and 
        families balance the competing demands of work, deployments and 
        family/personal life.
  --Military Family Life Consultants (MFLCs) are another resource 
        available to National Guard and Reserve families. The goal of 
        the MFLC is to prevent family distress by providing on-site 
        education and information on family dynamics, parent education, 
        available support services, and the effects of stress and 
        positive coping mechanisms.
  --The Department is working with the Services and Reserve components' 
        family support activities to reduce stress on members and 
        families, such as: integrating family support programs into 
        more of a total force effort, thereby increasing mutual support 
        across component and Service lines; surging the distribution of 
        information materials, making families more aware of benefits 
        and resources; and, increased emphasis on return and reunion 
        programs.
  --Over 600 family assistance centers around the world (approximately 
        340 of them sponsored by the National Guard and managed by the 
        State Family Program Coordinators in each of the 54 States and 
        Territories) are providing support services.
  --The Department has taken positive steps to ``get the word out'' 
        about entitlements and benefits available to the reserve 
        community. We are capitalizing on technology by using the 
        internet to provide information:
    --Benefits.--We have published several documents which are 
            available on line to members and families while the 
            military member is mobilized/deployed:
      -- 8th Edition of the Guide to Reserve Family Member Benefits 
            (March 2007) as well as the Guard and Reserve Family 
            Readiness Toolkit (January 2006)
      -- A Mobilization Information and Resources Guide (October 2001. 
            last updated May 2007)
      -- A Family Separation and Readiness Training Guide (Partnered/
            linked from Air Force Crossroads November 2002)
    --Deployment Information.--The Department developed and implemented 
            publicly accessible ``Deploymentconnections.org,'' 
            ``Military Homefront,'' ``America Supports You'' and other 
            websites to make available current information on 
            deployments, support and other information of interest to 
            members, families and extended families.
  --A Regional Joint Family Support Assistance Program is being 
        designed as required by the fiscal year 2007 National Defense 
        Authorization Act. Critical components of the program involve 
        building coalitions and connecting Federal, state, and local 
        resources and non-profit organizations to support Guard and 
        Reserve families. Best practices learned from more than 30 
        Inter-Service Family Assistance Committees and the Joint 
        Service Family Support Network will guide the planning process. 
        The Minnesota program, as well as programs from several other 
        states, will serve as models.
    Question. What are you doing to help diagnose, treat, and 
rehabilitate traumatic brain injuries and PTSD? What are the schedules 
for screening after soldiers and Marines return from combat 
deployments? Are family members or other loved ones contacted as part 
of post deployment screening?
    Answer. Diagnoses of traumatic brain injuries (TBI) are usually 
made at the time of head trauma, such as being injured or affected by 
an explosion. Some Service members may have manifestations not 
initially appreciated after head injury such as fatigue, irritability, 
or subtle cognitive impairment. For this reason, questions assessing 
potential TBI have been added to the post-deployment health assessment, 
post deployment re-assessment and periodic health assessment.
    While most patients with mild TBI symptoms spontaneously recover 
without treatment, for some patients symptoms persist. Symptoms of TBI 
often respond to medical treatment. Implementation of a process to 
establish a neurocognitive baseline for Service members may be useful 
for comparison of performance after any subsequent injuries. The 
Defense and Veterans Brain Injury Center Working Group has created 
clinical practice guidelines and recommendations for the acute 
management of military TBI in military operational settings. The 
finalization and dissemination of these guidelines is pending.
    Symptoms of Post Traumatic Stress Disorder are assessed during both 
the Post Deployment Health Assessment five days before redeploying from 
theater, and again, 3-6 months after returning home as part of the post 
deployment health reassessment. Like all the conditions included on 
these assessments, each Service member has a private encounter with a 
medical health care provider to discuss any mental health concerns. 
Appropriate referrals are made according to the type and severity of 
physical or mental health concern that the Service member indicates 
verbally and/or in writing.
    Family members are strongly encouraged to participate in family 
support functions and groups during deployments, such as the Army's 
Family Readiness Groups. Those who participate often engage in the same 
kinds of reintegration/reunion preparation processes their spouses are 
experiencing in theater prior to returning. Family members are strongly 
encouraged to participate, though as civilians they cannot be required 
to do so.
    In addition, many support systems exist for families, including 
installation family support services, and the online MilitaryOneSource 
program. In addition to online education related to deployment 
challenges, confidential free counseling is available both by phone 
(24/7) and face-to-face counseling, up to 6 sessions per identified 
problem. Mental health screening/education is available to all Service 
and family members online at www.militarymentalhealth.com.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
        sale of shadow unmanned aerial vehicles (uavs) to poland
    Question. Background: The United States approved the sale of 2 UAV 
systems to Poland in Fall 2006. And while the Polish government has had 
the Letter of Agreement (LOA) since January 2007, they have not signed 
it yet because they wish to make some changes. Specifically, they want 
the LOA amended to include NATO-compliant up-armored Humvees. These 
vehicles are needed to support the UAV systems, and Poland is preparing 
to take leadership of the NATO mission in Afghanistan in July 2007. 
Unfortunately, American production lines for Humvees are not making 
NATO-compliant trucks because they are not needed in Iraq. Even if 
Poland's request for NATO Humvees could be granted today, there might 
not be enough time to deliver the system and train Polish forces before 
they take over the NATO mission in July 2007.
    What is the status of the sale of Shadow UAV systems to Poland?
    Answer. There are a few inaccuracies in the background data that 
accompanied the question. The correct information is incorporated in 
the following response.
    Congress approved the proposed sale of 2 Shadow UAV systems to 
Poland in August 2006. U.S. Army briefed the program and presented a 
draft Letter of Offer and Acceptance (LOA) to the Poles in September 
2006. Since that time, the Poles have forwarded multiple rounds of 
questions and have requested several changes to the program (including 
nonstandard HMMWVs that include EU requirements). In February 2007, the 
Poles indicated that further program changes might be forthcoming, but 
so far none have been requested. The U.S. Army responded to Poland's 
latest set of questions on May 15, 2007 and is waiting for Poland's go-
ahead to proceed with the program.
    DOD could provide the LOA for final signature (in its current form) 
within two weeks. If there are additional changes, it will take 
additional time to rework the LOA and validate the pricing, but we will 
expedite the process to the maximum extent possible. We expect a 
decision from the Poles in mid-June.
    Poland does have troops in Afghanistan, but is not scheduled to 
take over the NATO mission. That said, we cannot guarantee at this time 
that a Shadow UAV system could be provided during Poland's deployment 
to Afghanistan.
    Question. What can we do to help Poland complete this sale in time 
for them to take over leadership of NATO mission in Afghanistan in 
July?
    Answer. Although Poland is not scheduled to take over the NATO 
mission, it does have more than 1,000 troops currently deployed to 
Afghanistan.
    Unfortunately, it is not possible to provide Shadow 200 UAV systems 
to Poland by July 2007. The estimated production lead-time of 31 months 
is driven by the availability of all items and subsystems that make up 
the Shadow UAV system--not only the air vehicles produced by AAI, but 
also U.S. Government Furnished Equipment such as HMMWVs and radios 
(which are in very short supply).
    Once Poland signs a Foreign Military Sales case to purchase the 
UAVs, U.S. Army personnel will make every effort to expedite delivery. 
An expedited solution, if feasible, may require the Poles to accept 
U.S.-standard HMMWVs (instead of HMMWVs that incorporate EU 
requirements) or supply their own radios on an interim basis. But even 
with extraordinary efforts, we cannot guarantee at this time that a 
Shadow UAV system could be provided during Poland's Afghanistan 
deployment.
    Question. Did Secretary Gates address this during his recent trip 
to Warsaw?
    Answer. This subject did not arise.
    Question. What did the Polish government say about the importance 
of this sale?
    Answer. We understand the program currently has the personal 
attention of the Polish Minister of Defense and the Chief of Defense. 
However, the Ministry of Defense has so far been unable to reach a 
decision on whether to proceed. The Poles have expressed urgency in 
receiving the UAVs in support of their Afghanistan mission, yet 
continued inquiries and requests for changes have delayed the program 
and precluded the U.S. Army from finalizing the Letter of Offer and 
Acceptance (LOA).
    In recent weeks, there have been indications that the Poles are 
considering canceling or delaying the UAV program in favor of other 
emerging requirements that urgently require Foreign Military Financing 
(FMF) funding. The Poles are evaluating several options: (1) proceeding 
with the current program, (2) deferring the procurement until future 
years, (3) purchasing one Shadow system instead of two, or (4) 
canceling the program in favor of a direct commercial purchase. We 
expect a decision in mid-June.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Mr. Secretary, you may know that Cannon Air Force Base 
was placed in enclave status as a result of the 2005 BRAC process, and 
the Department of Defense was instructed to seek a new mission for 
Cannon. Last June, the Department decided Cannon will be home to a new 
Air Force Special Operations Command (AFSOC) wing, but I am concerned 
about a lack of plans to build up the base to meet AFSOC's needs in the 
near term. Why aren't Special Operations Command's $72 million in 
fiscal year 2008 Cannon unfunded MILCON requirements budgeted for by 
the Department, what will it mean in terms of operational capabilities, 
personnel, and assets at Cannon if these unfunded requirements remain 
unfunded, and what does the Department need from Congress to make sure 
that Cannon has the assets and facilities it needs as AFSOC stands up 
its Western base on October 1, 2007?
    Answer. Requirements for the Special Operations Facilities at 
Cannon Air Force Base are funded in the FYDP, primarily in fiscal year 
2011-2013. A complete infrastructure plan, reflecting the new mission 
at Cannon, was not finalized and approved before the fiscal year 2008 
President's budget was lacked and submitted to Congress. Consideration 
of accelerating the build-up of infrastructure did not materialize 
until after the budget was submitted. Now that plans are more concrete, 
the Department can reevaluate the timing and the funding of the 
military construction projects to support this initiative. So 
accelerate the projects from the out-years, USSOCOM needs $72 million 
in fiscal year 2008. Accelerating the funding would enable USSOCOM to 
start the projects at Cannon much earlier. There is an AFSOC team at 
Cannon that is working with the Air Force to ensure a smooth transition 
plan. The AFSOC ownership date remains October 1, 2007, and unit 
standups at Cannon in fiscal year 2008, fiscal year 2009, and fiscal 
year 2010.
    Question. Mr. Secretary, with the fiscal year 2007 supplemental 
appropriations request still pending in Congress, I'd like to talk 
about your efforts in and needs for the Global War on Terror. What are 
your plans for the U.S. military if the Iraqi government does not take 
responsibility for establishing a self-sufficient and stable government 
and honor the commitments it's made to the United States, like taking 
responsibility for security in all provinces and providing $10 billion 
for reconstruction efforts, by this fall?
    Answer. We should never forget that the Iraqi leadership is 
operating in very difficult and dangerous circumstances and is facing a 
very complicated political, military and economic situation. Indeed, it 
is hard for those of us who have lived all our lives under a stable 
constitutional order to imagine the types of challenges faced by the 
top officials of the Iraqi government.
    We remain confident that the Iraqi government will make progress 
with respect to the issues you mention. Obviously, it is unreasonable 
to impose a hard-and-fast deadline on a government that is operating in 
such a fluid and complex situation.
    The New Way Forward, announced by the President in January, 
continues to guide our actions in Iraq. The initial signs are 
encouraging, but it is too soon to infer trends.
    Question. As you know, Holloman Air Force Base has some amazing 
assets to offer the Air Force, including air space and nearby training 
capabilities at White Sands Missile Range. Your budget proposes 
retiring the remaining Holloman F-117s in fiscal year 2008. While I 
understand that a transition plan is in place to bring F-22s to the 
base, I am interested in other ways your Department might use 
Holloman's assets. Is the Department looking at other missions that 
could benefit from Holloman's air space and other assets, including 
working with other Services on joint missions, and has the Department 
considered what other Services might utilize Holloman, possibly for 
unmanned aerial vehicles because of the installation's proximity to 
vast training areas and its ability to readily interact in a joint 
training and development environment with the Army at Fort Bliss, Texas 
and White Sands Missile Range, New Mexico?
    Answer. Yes, as a result of the F-22 basing decision, the Air Force 
is working closely with the Army to expand the use of White Sands 
Missile Range (WSMR)-Holloman airspace for supersonic and defensive 
training. This training will take advantage of existing joint air and 
missile defense training of PATRIOT crews and their command and control 
on the WSMR.
    In the future, Air Force special operations forces (SOF) stationed 
at Cannon Air Force Base, NM will utilize the WSMR-Holloman training 
complex for joint conventional-SOF integration training. As part of 
this move, Cannon Air Force Base, NM is scheduled to receive the 3rd 
Special Operations Squadron, currently flying Predator unmanned aerial 
vehicles at Nellis Air Force Base, NV in the summer of 2008, but there 
are currently no other plans to station additional unmanned aerial 
vehicle assets in New Mexico.
    Aside from these requirements, there are currently no other 
missions being considered for Holloman Air Force Base.
    Question. Members of the New Mexico National Guard have raised 
serious allegations that racism may have played a role in a 2006 Army 
investigation relating to National Guard gang activity in Kuwait. Such 
allegations would be concerning to any member of Congress, but are 
especially so for me since I represent a State where a majority of the 
population is Hispanic. I've asked Army Secretary Geren to promptly and 
fully investigate these claims, but I'd like to know what you can do to 
also help us get to the bottom of this problem.
    Answer. Senator, as you stated, the Army is currently reviewing 
this matter. I would prefer to not interfere or comment until the 
Acting Secretary of the Army's review is complete and we know all the 
facts. You may be assured that we will work with the Army on this 
issue, and ensure that you are notified of the results of the Army's 
review upon completion. Racism should have no place in our Armed 
Forces.
    Question. A recently released General Accountability Office report 
indicates that as of November 2006, non-deployed Army National Guard 
forces in New Mexico ranked last in the nation regarding equipment 
readiness, with less than 40 percent of the total amount of dual-use 
equipment they are authorized to have for war-fighting missions. What 
actions is the Department taking to ensure that New Mexico's National 
Guard has the equipment it needs for missions at home?
    Answer. The Department of the Army is investing approximately $24 
billion in Army National Guard (ARNG) equipment from fiscal year 2007 
to fiscal year 2011 and another $6 billion in fiscal year 2012 and 
fiscal year 2013. Much of this equipment will have utility for both 
domestic and war fighting missions. If executed as planned, this 
funding will bring ARNG equipping levels to 77 percent by fiscal year 
2013-15.
    The ARNG leadership is sensitive to the fact New Mexico is below 
the national average and ranks near the bottom in critical dual use 
equipment. The ARNG leadership briefed a New Mexico delegation on 
Capitol Hill this past spring and discussed the various causes for New 
Mexico's low percentage of equipment. New Mexico is among the smallest 
force structures in the ARNG. This small structure allows deployed or 
Theater Provided Equipment (TPE) to significantly affect their 
equipment on hand percentages. New Mexico left 13 percent of its 
equipment in theater and has an additional 6 percent currently deployed 
with activated units. Furthermore, New Mexico recently reorganized from 
air defense to infantry and engineers resulting in an increase in 
equipment requirements.
    The Army National Guard is currently sending engineer equipment to 
New Mexico from other deactivating units. State representatives 
mentioned on May 21, 2007 that the equipment is coming in faster than 
expected and in good condition. This month New Mexico received 99 High-
Mobility Multipurpose Wheeled Vehicles (HMMWVs) from the ARNG RECAP 
program. In addition to these programs New Mexico's fiscal year 2007 
and fiscal year 2008 programmed equipment deliveries are 2,108 pieces 
of equipment valued at $20.2 million.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Are there any plans under consideration to transport 
hydrolysate from the Blue Grass Army Depot, Kentucky to another state 
as was recently undertaken in Indiana? If so, in what manner would the 
Congress and the affected local communities be consulted ahead of time 
(vice informed)?
    Answer. In 2003, the Department of Defense (DOD) selected 
neutralization destruction technology to destroy the chemical weapons 
stockpile located at the Blue Grass Army Depot, Kentucky, followed by 
on-site supercritical water oxidation to treat the neutralization by-
product, hydrolysate. The DOD, through the Assembled Chemical Weapons 
Alternatives (ACWA) Program, is currently researching and developing 
initiatives for greater efficiency. One such initiative includes the 
option to ship and treat hydrolysate off-site to a commercial 
treatment, storage and disposal facility. Such an option may accelerate 
the schedule as well as reduce program costs.
    Since the ACWA Program's inception in 1996, community involvement 
has played a significant role. The DOD has consistently considered the 
community's concerns when making technology decisions on the program. 
Such public involvement will continue as we seek to eliminate the risk 
to the public and the environment from continued storage of the 
chemical weapons stockpile quickly and reduce costs without 
compromising safety and the environment. In Kentucky, the primary 
public involvement mechanisms are the governor-appointed Kentucky 
Chemical Demilitarization Citizens' Advisory Commission and its 
independent subcommittee, the Chemical Destruction Community Advisory 
Board, known as the CDCAB. The CDCAB is composed of a diverse group of 
community leaders, including Congressional staff, organized to 
represent the views and concerns of all sectors of the local community 
on issues regarding the Kentucky chemical weapons disposal program.
    If the DOD considers transporting hydrolysate off-site for 
treatment and disposal, the Congress and the affected local communities 
will be briefed on the various options considered to seek their views 
and concerns. After review and assessment of these views and concerns, 
the DOD will make the decision on whether to treat the hydrolysate on-
site or transport off-site.
    Question. It has come to my attention that some operations at 
military installations are encumbered by the need for compliance with 
Davis-Bacon. How much would you estimate the Department of Defense 
would save annually if it did not have to comply with Davis-Bacon?
    Answer. We do not collect data that would provide an estimate of 
how much the Department of Defense (DOD) would save annually if it did 
not have to comply with the Davis-Bacon Act. What our contract data 
reporting system does tell us, however, is that the Davis-Bacon Act was 
reported as applying to approximately 2.5 percent (or $7.5 billion) of 
DOD's $295 billion fiscal year 2006 acquisition dollars spent.
                                 ______
                                 
               Questions Submitted to General Peter Pace
            Questions Submitted by Senator Daniel K. Inouye
                       executive agency for uavs
    Question. General Pace, are there other ways to gain efficiencies 
in the development of UAVs while taking into account service-specific 
needs?
    Answer. In 2005, in response to a previous Air Force executive 
agency initiative, the Joint Requirements Oversight Council (JROC) 
established two organizations for the purpose of gaining efficiencies 
in development of UAVs and the joint tactics, techniques and procedures 
(TTP) that guide their employment. The Joint Unmanned Aircraft Systems 
Center of Excellence (JUAS COE) at Creech AFB, NV, is an operationally 
focused, joint organization tasked with developing joint TTPs and 
doctrine as well as facilitating integration of UAV capabilities into 
joint and component training and exercises among the Armed Services. 
The JUAS COE is currently led by an Army brigadier general; but June 
19, Air Force Brigadier General Charles Shug will take command. The 
other organization formed in 2005 by the JROC is known as the JUAS 
Materiel Review Board (MRB). Its mission is to provide a forum to 
identify or resolve requirements and corresponding materiel issues 
regarding interoperability/commonality and the prioritization of 
potential solutions. Both the MRB and COE work together closely and 
coordinate their activities. Currently, there are several multi-Service 
collaborative efforts that offer programmatic efficiencies: the Army 
and Navy have coordinated on the FIRESCOUT program, the Army and Marine 
Corps have cooperated on the SHADOW program, and the Army, Marine 
Corps, and USSOCOM have all cooperated on the RAVEN-B program.
    Question. General Pace, the Air Force has asserted that they can 
shorten fielding times, focus research and reduce logistics costs. 
These assertions may argue for centralized procurement but not 
centralized operational control. Has the Air Force presented a business 
case for review?
    Answer. We have not seen an Air Force business case for review with 
respect to their assertions. Quantitative data for further evaluation 
is still required and is being developed. Air Force assertions and 
proposals for executive agency (EA) are also being considered within 
the context of a larger effort to determine whether the designation of 
a military department as UAV executive agent for the Department of 
Defense would serve as the best means of eliminating unnecessary 
duplication of effort.
    Question. Secretary Gates, has success in moving towards joint 
operations and net-centric warfare blurred the traditional lanes of 
Service responsibilities--and is it time for another broad look at the 
Services' roles and missions?
    Answer. The Department has continued to progress in moving toward 
joint operations and joint net-centric warfare. We continue to 
transform our equipment, our forces, and our cultures to embrace joint 
net-centric operations. Movement toward joint net-centric operations 
has not blurred the traditional lanes of our Services.
    As transformation efforts mature, fundamental changes in process, 
policy, and culture will occur. The Services still provide unique core 
competencies: The Army continues to lead our land warfare efforts; the 
Navy leads our maritime and littoral water efforts; the Marines lead 
our amphibious and littoral land operations efforts; and the Air Force 
leads our air and space efforts. These core competencies are packaged 
to provide joint capabilities for conducting the full spectrum of 
military operations. As efforts to transform to a net-centric force 
improve, joint warfare concepts and operations become further 
institutionalized and the timing to conduct such a review may be 
appropriate. Joint net-centric operations have given the joint force 
commander more options to employ force packages composed of Service 
elements. These can be quickly tailored to any specific mission. This 
has allowed us to use Service trained and equipped forces in broader 
ways than traditional lanes allowed. The result is a more efficient and 
effective force that can operate jointly at a much closer and lower 
level than we ever envisioned. This has not so much blurred the lanes 
between the Services, as it has allowed us to maximize the capabilities 
that the Services collectively bring to the table.
    Our advances in joint operations and net-centric warfare have 
identified new capabilities in areas where roles and missions have not 
been established. A recent example of this is the approval of the 
National Military Strategy for Cyberspace Operations. This strategy 
highlights the need for addressing joint and Service war fighting roles 
and missions in cyberspace. Given the emerging nature of cyberspace 
operations, we are assessing the roles and responsibilities required to 
operate in this domain. However, it is premature to recommend changes 
until the joint community is allowed to constructively debate the 
complex issues involved with building the capacity to conduct 
cyberspace operations.
                             strategic lift
    Question. General Pace, strategic lift is an enabling capability 
that is critical to U.S. military activities. Has your staff assessed 
the strategic lift requirement in light of end-strength increases and 
wear on the current lift aircraft?
    Answer. Yes, our assessment is the end-strength increases should 
not substantially affect surge lift requirements. The Army and Marine 
Corps position is that the end-strength increases dwell time to 
deployment only. Given that position, projected end strength increases 
should not substantially affect surge lift requirements. Further 
analysis will occur during the next Mobility Capability Study, which 
will fully incorporate any changes in plans and requirements because 
the Services' force structure end-strength increases.
    From 2001 to 2006, the C-17 fleet has over-flown its service life 
by over 159,000 hours. The over-fly can be attributed to the GWOT and 
the lack of proper basic aircraft inventory (BAI) resulting in 
additional aircraft wear and tear. Congress added 10 additional C-17s 
to the established 180 purchase, of which 7 will be used to correct the 
BAI shortfall and 3 will go toward recovering the wear and tear caused 
by the GWOT. An additional 2 C-17s are required to recover the 
remaining capability lost due to wear and tear caused by the GWOT for a 
total of 12 additional C-17s.
    Question. What are your views on the strategic lift posture of the 
force today and for the foreseeable future?
    Answer. The Mobility Capabilities Study (MCS) determined our 
projected capabilities are adequate to achieve the National Military 
Strategy into the next decade with ``acceptable risk.'' However, some 
of the MCS findings require reassessment in the next mobility study 
planned in 2008, including: No increase in airlift demand from a 
revised strategy/planning construct, no program growth associated with 
Defense of the Homeland Defense mission, and no significant increase in 
intratheater demand.
    On the airlift side, though we do not have our full complement of 
airlifters, we anticipate receiving our 190th C-17 by the end of 2009. 
Those C-17s, coupled with fully modernized C-5's, allow us to maintain 
the proposed 299 strategic airlift aircraft as stated in H.R. 5122 Sec. 
132, which is near the bottom of the MCS strategic airlift range of 292 
to 383 aircraft. Additionally, the dual-mission KC-10 along with our 
viable CRAF partners, will significantly contribute to our success, 
both today and well into the future.
    On the sealift side, the follow-on study, MCS-06, expected to be 
completed in the fall of 2007, is reviewing the adequacy of the 
department's pre-positioning forces and tanker sealift capabilities.
                              dual hatting
    Question. General Pace, do you have any thoughts on dual hatting 
the USD(I) and the effect it may have on the warfighter?
    Answer. [Deleted.]
                        national guard equipment
    Question. General Pace, in this year's budget plan, the Army 
National Guard would be equipped to have 77 percent of its authorized 
equipment on-hand by fiscal year 2013. Given the important role of the 
Army Guard in fighting the war on terrorism and preparing for domestic 
emergencies, aren't you concerned that, five years from now, the 
National Guard may still be short by nearly a quarter of its authorized 
equipment?
    Answer. There is no question that there has been a drawdown of 
equipment in the National Guard. As of May 2, 2007, the Army National 
Guard (ARNG) had an average equipment on-hand of 49 percent across the 
Nation. For equipment on-hand most suitable for State emergency 
purposes the equipment is at 53 percent across the Nation. Prior to 9/
11, the ARNG was at 75 percent equipment on-hand across the country. We 
feel that 75-80 percent is the ideal range for equipment on-hand, but 
it must be the most modern and up to date and not outdated/in-lieu of 
and ``cascading'' equipment that the Active Component has already used 
up.
    We feel that 75 percent equipment on-hand is about right for a few 
reasons. First, this is the historical level of on-hand equipment for 
the ARNG. Second, with a consistently changing mission requirements, 
constraining the Guard with equipment that may be mission obsolete in a 
year or two is not fiscally or mission responsible. Third, the 
maintenance on 100 percent authorized equipment would severely strain 
Guard resources and the DOD budget.
    The Department of Defense currently has about $22 billion budgeted 
for the period fiscal year 2008 to fiscal year 2013 just for the Army 
Guard, and we have money in the budget for both the Army and Air 
National Guard in the fiscal year 2008 GWOT, as well as the fiscal year 
2007 supplemental before the Senate.
    But clearly, we need to follow through with this program to rebuild 
the stocks of equipment that are available to the National Guard.
                               readiness
    Question. General Pace, Army and Marine leadership continue to 
confirm to us that readiness of deployed forces is at the highest 
levels. However, this readiness often comes at the expense of non-
deployed forces. What policies are being implemented to ensure that our 
non-deployed forces are no longer the bill-payers for the readiness of 
others?
    Answer. The readiness challenges faced by our non-deployed units 
are particularly acute in the Army and Marine Corps. The Services must 
prioritize the readiness of deployed or deploying forces and accept 
some degradation of readiness in recently returned units as part of the 
deployment cycle. The current demand for forces amplifies the effect of 
this cyclic process and there are few policy options available that 
would alleviate the burden on non-deployed units. This is due to the 
scarcity of resources faced by the Services as they attempt to meet 
current requirements.
    There are processes that help minimize the burden on non-deployed 
forces. Over the past two years, we have used the Global Force 
Management process to ensure the deployment burden is equitable and 
shared through global sourcing of units and in-lieu-of sourcing. The 
Army conducts Force Feasibility Reviews on the highest demand systems 
to determine the acceptable number of systems that can be fielded to 
units. This allows greater distribution of high-demand items across the 
force. Supplemental funding is being directed to improving personnel 
readiness and addressing equipment shortages in units that have been 
employed in the harsh operating environments of Iraq and Afghanistan.
                       future combat system (fcs)
    Question. General Pace, the Army is undertaking a massive effort to 
modernize its force for the future, while at the same time struggling 
to sufficiently resource its current needs. In light of sizeable 
current requirements, there are some suggestions that investments in 
the future force should be deferred. In your opinion, what is the risk 
of deferring Army modernization?
    Answer. The Army is modernizing for the first time in decades 
through its Future Combat Systems (FCS) program. Our Army must deploy 
quickly and transcontinently, fight upon arrival, and prevail even in 
chaotic urban settings. That's why the Army must continue to modernize 
now to build a more agile, versatile, mobile, lethal, and self-
sustaining force that will move as fast as 21st century conflicts 
demand. The Cold War Army is too heavy and too slow for today's fights. 
In fiscal year 2008, the Army is requesting $3.7 billion for FCS 
modernization and $4.2 billion for aviation modernization. This is a 
significant amount of money; however, it represents 3.7 percent of the 
Army's total budget request of $213.5 billion. This figure includes a 
$83.4 billion supplemental to prosecute the GWOT.
    Soldiers and units used to wait decades for new and more modern 
equipment, but not anymore. With FCS, the Army is fielding prototype 
modern capabilities today. Moreover, new capabilities are being ``spun 
out'' incrementally to Soldiers at least every two years. The risk of 
deferring Army modernization is reducing the protection of our 
Soldiers. Precursor FCS technologies already are saving Soldiers' lives 
in Iraq and Afghanistan. Examples are the PackBot, which is a 
forerunner of the FCS's small unmanned ground vehicle; and the micro 
air vehicle, which is the prototype for the Class I UAV. This system is 
being used by 4th Brigade 2d Infantry Division (Stryker) as they train 
up for their deployment to Iraq.
    Question. General Pace, what added value does the Future Combat 
System bring to the warfighter in addressing likely future threats?
    Answer. The Army is modernizing so that our Soldiers retain a 
decisive-technological advantage over America's enemies. The Army has 
not modernized comprehensively in decades. However, America's enemies 
are innovative and resourceful, and they are not standing still. 
Technology, meanwhile, is advancing and proliferating at a rapid pace. 
That's why the Army is now modernizing to protect the Soldiers. FCS is 
designed to protect Soldiers against improvised explosive devices 
(IEDs), which are causing more than half of all American fatalities in 
Iraq and Afghanistan. The FCS vehicles are being designed with a full 
suite of active and passive protection systems for full-scale, 360 
degree protection. The current Army vehicles will be upgraded with new 
FCS capabilities for enhanced troop and vehicular protection. When our 
Soldiers are in harm's way, we must do everything possible to equip and 
protect them. Further, in the past the military modernized large scale 
systems in the past--nuclear weapons, ships, aircraft carriers--that 
empowered commanders at higher echelons--divisions, corps and theaters. 
With FCS, the Army is modernizing precisely to empower the individual 
Soldier so that he or she will have more capabilities and greater 
protection for irregular, asymmetric warfare in the 21st century.
                                training
    Question. General Pace, what are the risks associated with the 
focused emphasis that we currently have on training our troops for 
operations in the Global War on Terror? Aren't training activities for 
other possible contingencies suffering?
    Answer. The primary risk associated with focusing our training on 
current operations is a degradation of our ability to perform all 
missions across the spectrum of conflict. If we need to quickly shift 
to a significantly different operational environment we would confront 
a new set of challenges (e.g., cold weather, tropical, major theater 
war). The Marine Corps and Army are the most challenged in training for 
the full spectrum of operations. This is evidenced by degradation in 
their readiness ratings, to include training ratings. In contrast the 
Navy and Air Force are less strained by current operations and have 
been able to effectively maintain readiness for contingencies across 
the entire spectrum. This is partially due to the fact that many of the 
tasks they perform in GWOT operations directly translate to skills 
required in a major theater war. While it is critical to remain focused 
on providing the best training for the current contingency, where 
possible, we are ensuring that we build strategic depth and train to 
maintain our readiness to respond to other critical operations.
                           army modernization
    Question. General Pace, what are your primary concerns about Army's 
efforts to reconstitute and modernize?
    Answer. My main concern is the Army's ability to do all that is 
asked of them within the resources allocated. The most significant 
challenge to accomplishing reconstitution and modernization for the 
Army is the receipt of timely, predictable, and adequate funding.
    The funds Congress has provided have substantially addressed the 
$56 billion Army equipping shortfall that existed at the beginning of 
the Global War on Terror (GWOT). Today, only a $9 billion shortage 
remains from the original $56 billion ``Holes in the Yard.'' Further, 
the availability of the $17.1 billion for Reset at the beginning of 
fiscal year 2007 allowed the Army to synchronize resources, people and 
materiel to align with the flow of equipment from returning units into 
the Reset process.
    However, the Army is challenged to respond to the changed 
conditions of warfare, which dictate that they can no longer accept 
risk in how the Army equips its Reserve Component (RC) and support 
units of all components. An additional $43 billion is needed to bring 
all Army units to a consistent level of modernization, including all RC 
units to ``Active Component-like'' levels of modernization. Of the $43 
billion required, $24 billion would be for the Army National Guard, $10 
billion for the Army Reserve, and $9 billion for the Active Component.
    The entire requirement of $52 billion--which includes the $9 
billion remaining from the beginning of GWOT plus $42 billion to 
complete modernization--is in addition to the funds requested in the 
fiscal year 2007 supplemental, the fiscal year 2008 base and GWOT 
request, and the Future Years Defense Plan. Under the current program, 
the Army would not be able to address this shortfall. With an 
additional $10 billion per year for each year remaining in the program 
(fiscal year 2009 to fiscal year 2013), the Army would be able to 
``fill the holes.''
                              f-22 raptor
    Question. General Pace, the F-22 Raptor program is currently funded 
to buy 183 fifth-generation fighters. Do you believe that this 
acquisition objective is adequate and will meet the future needs of the 
nation?
    Answer. Air Force and independent analysis have substantiated that 
381 is the minimum requirement to meet the National Military Strategy 
(NMS). The Office of the Secretary of Defense-led 2006 Quadrennial 
Review Joint Air Dominance study revealed two key points: first, the 
United States has a critical requirement to re-capitalize tactical air 
forces; and two, with sufficient 5th generation fighters, especially 
the F-22, joint air forces win the first major combat operation (MCO) 
with enough forces left to win the next MCO. Insufficient numbers of F-
22s result in unacceptably high attrition using a legacy-heavy force 
and jeopardizes the follow-on win. Meeting the requirement of 381 F-22s 
means fewer mobility assets are required for smaller force packaging 
and lower combat attrition as well providing a sustainable operations 
tempo. Finally, 381 RAPTORS is the minimum essential number to meet NMS 
requirements with reasonable risk and provides a sustainable operations 
tempo.
                       individual equipment load
    Question. General Pace, in testimony provided earlier this year, 
the Commandant of the Marine Corps told this subcommittee that the 
equipment the Marines carry into combat weighs about 80 pounds. That 
places quite a load on each individual. Has the Department challenged 
industry to come up with equipment that is just as effective but would 
take the weight burden off each individual?
    Answer. The Marine Corps continues to actively challenge industry 
to design equipment that can perform at least as effectively as today's 
gear, but with reduced weight and volume. The Marine Corps has also 
been working closely with the Army to present our common requirements 
to industry, to include a recently concluded annual Joint Industry Day 
sponsored by Army and Marine Corps program offices that was attended by 
over 400 industry representatives. Dialogue with our vendors and 
potential vendors continues to involve discussions about ways to 
decrease the burden on the individual Marine.
    In addition to our links with industry, the Marine Corps is also 
involved with the science and technology communities and is funding 
research efforts designed to yield material solutions that can reduce 
the weight and volume of equipment being used today while also 
increasing performance. Inclusive in these studies are projects being 
sponsored under the DOD Small Business Innovative Research program, as 
well as Marine Corps funded projects through the Naval Research Labs 
and the Office of Naval Research.
    Question. General Pace, because of the heavy load imposed by 
individual equipment on the troops, have you heard of any instances 
where soldiers or Marines are forgoing protection because the weight is 
too much to carry over a period of time?
    Answer. There are currently no indications that individual Marines 
are forgoing protection due to the load they are carrying. The load 
carried by the individual Marine in combat is based upon the mission, 
the enemy threat, and the operating environment. The Marine Corps has 
fielded items that enhance our commanders' ability to scale loads to 
best suit the situation. The load carriage system, for example, can be 
configured with a full pack for extended operations or reduced to a 
small assault pack for more limited missions.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    Question. Secretary Gates, when a deadly tornado struck Kansas 
recently, the Kansas governor was hamstrung. The Governor rightly 
complained that the Kansas National Guard was forced to leave its 
emergency equipment in Iraq after a recent tour of duty. Equipment that 
used to be positioned throughout the state for responding to tornados 
and other crises was sitting thousands of miles away in Iraq. In the 
supplemental appropriations bill that the President just vetoed, 
Congress approved $1 billion for Guard and Reserve Equipment. Mr. 
Secretary--in light of the President's veto, what are you doing to make 
sure that Guard and Reserve units across this nation are getting the 
equipment they need here in America?
    Answer. All 54 State's/Territory's aggregate Equipment on Hand 
(EOH) has increased from 40 percent in January 2007 to currently, an 
overall average of 49 percent (as of May 2007). During this same 
period, Kansas' EOH has increased from 43 percent to 52 percent.
    Funding for National Guard equipment has increased over 500 percent 
since fiscal year 2001 ($1.2 billion in fiscal year 2001 to $7.4 
billion requested in fiscal year 2008).
    The Army's current plan is to budget $21.9 billion from fiscal year 
2008-2013 (not including future Supplemental requests). This investment 
if sustained by the Army provides the Army National Guard (ARNG) with 
approximately 76 percent EOH as required in the Army's Modified Table 
of Organization & Equipment. The caveat to this funding is that it 
takes about two years from funding to procurement to have the equipment 
produced and delivered.
    The Army continues to work through and complete equipment payback 
plans (Department of Defense Directive 1225.6) for equipment that the 
States lost either through Stay Behind Equipment, Destroyed equipment 
and modernization and reset of equipment; is providing $1.76 billion of 
the $17.1 billion fiscal year 2007 supplemental for reset funding of 
equipment to the ARNG.
    The latest Equipment in States Possession brief released by the 
Army National Guard in May 2007 shows Kansas' EOH has increased from 43 
percent to 52 percent since the last brief dated January 2007. In 
addition, equipment programmed for delivery to Kansas since fiscal year 
2006 through fiscal year 2008 is valued at over $52 million.
    Question. General Pace, are there unfunded requirements from the 
services involving individual, unit and force protection equipment that 
might prove useful in Iraq? For example, in fiscal year 2007, the 
President requested only $1.8 billion for purchasing Mine Resistant and 
Ambush Protected vehicles. The supplemental appropriations bill that 
the President vetoed would have increased that amount by $1.2 billion 
to purchase an additional 2,000 vehicles. At what level, DOD or OMB, 
are the decisions made not to fund the requirements for this equipment?
    Answer. The Joint Chiefs and I are committed to obtaining the best 
available force protection equipment for our Soldiers, Sailors, Airmen, 
and Marines in Iraq and Afghanistan. The MRAP vehicles have been 
particularly effective in protecting our personnel from the roadside 
IED threat and the Department amended the original fiscal year 2007 
supplemental request to obtain an additional $500 million for MRAP than 
originally requested. As well, we are reprogramming currently available 
funds to accelerate and expand this important program.
    Service Chiefs, Service Secretaries, the Secretary of Defense, and 
the Administration work diligently to provide Congress a budget that 
wisely invests the Nation's resources for National Security. Their 
decisions work to achieve a balanced investment in current and future 
requirements based on combatant commander priorities. Nevertheless, as 
the threat facing our warfighters changes, we doggedly pursue new 
technologies and platforms that will protect our personnel and defeat 
the enemy. We will continue to work closely with the Congress to 
articulate our needs and stress emergent areas that require additional 
investment.
        sale of shadow unmanned aerial vehicles (uavs) to poland
    Question. General Pace, we have heard from several commanders that 
as a result of the war in Iraq, many units are not able to participate 
in combined forces training while in the United States. This suggests 
that there is inadequate equipment available to participate in another 
conflict involving U.S. national security interests, should one arise. 
What is the impact of the war in Iraq on the availability of equipment 
and personnel to defend the United States should another conflict arise 
or should it be necessary to utilize the military for homeland defense?
    Answer. [Deleted.]
    Question. General Pace, what is the total value of equipment lost, 
decommissioned, and left behind in Iraq? Further, what do you estimate 
that the cost of redeployment from Iraq will be?
    Answer. The Army does not use the terms ``lost,'' 
``decommissioned,'' and ``left behind'' to account for equipment. The 
Army accounts for all equipment lost through battle damage or 
negligence with a Financial Liability Investigation of Property Loss ( 
FLIPL). For the period January 6 to May 7, $195.4 million in equipment 
has been accounted for under FLIPL. This number also includes $12.9 
million of property Multi-National Force-Iraq has transferred to the 
Government of Iraq. To redeploy 160,000 troops from Iraq back to the 
CONUS would cost approximately $114 million.\1\ To redeploy the 
equipment listed in the Modified Table of Organizational Equipment 
(MTOE) for 20 Heavy Brigade Combat Teams (BCTs) (18 Army and 2 Marine 
Corps equivalents) to the CONUS is approximately $105 million.\1\ (The 
actual combat force on the ground in Iraq is a mixture of heavy, 
medium, and light units; the Heavy Brigade Combat Team equivalent is 
used as a planning factor.) These costs do not include MTOE equipment 
for Army units above the BCT level (including aviation, logistics, and 
support forces), additional equipment acquired by Army and Marine 
combat units beyond the MTOE, or Air Force and Navy equipment. Due to 
the dynamic nature of troop and equipment levels in Iraq, it is 
difficult to accurately determine the cost of a future redeployment 
from Iraq. In addition to specific numbers of troops and equipment, an 
accurate estimate must take into account any contractor-operated, 
government furnished equipment, amount of equipment transferred to the 
Government of Iraq (either through foreign military sales or donation), 
and unserviceable equipment that would be disposed of. Finally, any 
estimate would have to make assumptions about the final destination of 
troops and equipment; whether back to the United States, in-theater, or 
some other location. With these caveats, it is possible to provide the 
rough estimates given above based on assumptions about current force 
levels, and assuming 100 percent efficient utilization of transport.
---------------------------------------------------------------------------
    \1\ Planning factors used are $0.10 per seat mile for passengers 
and $70,000 per day for roll-on/roll-off ships for equipment.
---------------------------------------------------------------------------
    Question. General Pace, experts have observed the strain of 
supporting the ongoing operations in Iraq and Afghanistan by U.S. based 
active duty, Reserve and National Guard units. Can you speak to the 
impact that supporting operations in Iraq and Afghanistan has had on 
active duty forces stationed at overseas locations? Have these units 
received all the training and new equipment they were scheduled to 
receive? Have any of their assignments, rotations or tours of duty been 
extended or changed as a result of the operations in Iraq and 
Afghanistan?
    Answer. Forces stationed outside OCONUS share the same force 
management challenges as units based within the CONUS. Units are 
sourced globally for Iraq and Afghanistan deployments so the deployment 
burden is equitably shared across the force. Services prioritize the 
training and equipping of deploying units and accept some degradation 
in recently returned units as part of the deployment cycle. 
Prioritizing resources in this fashion ensures deploying units are at 
high-readiness levels. This prioritizing of resources is applied to 
both CONUS-based units and OCONUS-based forces selected to deploy.
    Equitable burden sharing also applies to tour lengths and dwell 
time policies. No force, whether based domestically or overseas, is 
deployed without meeting specific training requirements for their 
assigned mission/operation as directed by the Service provider. 
Deployment extensions in support of wartime operations can and do 
affect both CONUS-based and OCONUS-based forces. Furthermore, the dwell 
policies governing them are the same. In support of the recent increase 
in forces in Iraq, both CONUS-based and OCONUS-based forces have 
experienced deployment extensions.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
    Question. How is pre-deployment training accomplished for National 
Guard units who lack the equipment that they will be operating with 
once they arrive in Iraq?
    Answer. As we continue fighting the War on Terrorism, the Active 
Component, National Guard and Reserve are all facing some equipment 
challenges. We have made the commitment that no unit, Active, Guard, or 
Reserve will deploy into actual mission areas in Iraq and Afghanistan 
without prior training (and sourcing) on equipment either in the 
continental United States or in-theater.
    Specific to the National Guard, each State/unit develop their 
training cycle on three criterias; the time available, equipment 
availability, and training areas/ranges available. The States/units 
also provide a ``list of needs and shortages,'' which is programmed 
before deployment. If required equipment is not available during either 
the pre- or post-mob training cycle in the United States, it is planned 
and sourced in-theater prior to onward movement in the area of 
operations.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The subcommittee stands in recess until 
May 16, when we will receive testimony from outside witnesses. 
Thank you all very much.
    [Whereupon, at 12:04 p.m., Wednesday, May 9, the 
subcommittee was recessed, to reconvene at 10 a.m., May 16.]

</pre></body></html>
